   An Investigation of Allegations of
       Politicized Hiring in the
 Department of Justice Honors Program
                  and
     Summer Law Intern Program




U.S. Department of Justice        U.S. Department of Justice
Office of the Inspector General   Office of Professional Responsibility




                            June 24, 2008
                                TABLE OF CONTENTS

I.     Introduction...................................................................................... 1

II.    Background on Honors Program and Summer Law Intern
       Program (SLIP) .................................................................................. 3
       A.      Changes to Hiring Process Made in 2002 ................................. 4
       B.      Department Hiring Standards.................................................. 6

III.   Hiring for Honors Program and SLIP from 2002 to 2006 .................... 9
       A.      Component Selection Process .................................................. 9
               1.       Overview of Processes Used by the Components ............. 9
               2.       Summary of Processes Used by Individual
                        Components................................................................. 12
       B.      The 2002 Screening Committee ............................................. 15
               1.       Process Used by the Screening Committee.................... 16
               2.       2002 Honors Program and SLIP Data Analysis ............. 19
               3.       Conclusions on 2002 Honors Program and SLIP
                        Hiring Process .............................................................. 32
       C.      The 2003 to 2005 Screening Committees ............................... 34
               1.       2003 Honors Program and SLIP Data Analysis ............. 35
               2.       2004 Honors Program and SLIP Data Analysis ............. 35
               3.       2005 Honors Program and SLIP Data Analysis ............. 36
               4.       Conclusions on the 2003 to 2005 Honors Program
                        and SLIP Hiring Process ............................................... 37
       D.      The 2006 Screening Committee ............................................. 37
               1.       The Screening Committee’s Decisions........................... 37
               2.       Concerns About the Screening Committee Process
                        Raised with the OARM Director .................................... 59
               3.       Concerns About the Screening Committee Process
                        Raised with Elston ....................................................... 60
               4.       Concerns About the Screening Committee Process
                        Raised with the Acting Associate Attorney General ....... 63
       E.      Initial Proposed Changes to the Honors Program and SLIP
               Hiring Process ....................................................................... 65
       F.      Additional Revisions to the Honors Program and SLIP
               Hiring Process ....................................................................... 66
       G.      Evidence as to Whether 2006 Screening Committee
               Members Considered Political and Ideological Affiliations ....... 68



                                                 i
                1.       Lack of a Written Record .............................................. 68
                2.       Daniel Fridman ............................................................ 69
                3.       Esther Slater McDonald ............................................... 75
                4.       Michael Elston ............................................................. 79
        H.      Conclusions on 2006 Honors Program and SLIP Hiring
                Process.................................................................................. 92

IV.     Conclusions and Recommendations ................................................ 98

APPENDIX.............................................................................................. 103




                                                 ii
                                  INDEX OF CHARTS

Chart 1: Average Number of Honors Program and SLIP Candidates
         Hired Each Year by Select Components between 2002
         and 2006 ............................................................................ 10
Chart 2: 2002 Honors Program Candidate Universe.......................... 21
Chart 3: Affiliations of 2002 Honors Program Candidates ................. 22
Chart 4: Affiliations of Academically Highly Qualified 2002 Honors
         Program Candidates ........................................................... 23
Chart 5: 2002 Honors Program Candidate Membership in the
         American Constitution Society and the Federalist Society ... 24
Chart 6: Political Affiliations of 2002 Honors Program Candidates .... 25
Chart 7: Political Affiliations of Academically Highly Qualified 2002
         Honors Program Candidates ............................................... 26
Chart 8: 2002 SLIP Candidate Universe............................................ 27
Chart 9: Affiliations of 2002 SLIP Candidates ................................... 28
Chart 10: Affiliations of Academically Highly Qualified 2002 SLIP
          Candidates....................................................................... 29
Chart 11: 2002 SLIP Candidate Membership in the American
          Constitution Society and the Federalist Society ................ 30
Chart 12: Political Affiliations of 2002 SLIP Candidates .................... 31
Chart 13: Political Affiliations of Academically Highly Qualified
          2002 SLIP Candidates ...................................................... 32
Chart 14: Honors Program Deselection Rates from 2002 to 2006 ...... 39
Chart 15: 2006 Honors Program Candidate Universe ........................ 41
Chart 16: Affiliations of 2006 Honors Program Candidates ............... 42
Chart 17: Affiliations of Academically Highly Qualified 2006 Honors
          Program Candidates ......................................................... 43
Chart 18: 2006 Honors Program Candidate Membership in
          the American Constitution Society and the
          Federalist Society ............................................................. 44
Chart 19: Political Affiliations of 2006 Honors Program Candidates .. 45
Chart 20: Political Affiliations of Academically Highly Qualified
          2006 Honors Program Candidates .................................... 46
Chart 21: 2006 SLIP Candidate Universe .......................................... 54
Chart 22: Affiliations of 2006 SLIP Candidates ................................. 54



                                               iii
Chart 23: Affiliations of Academically Highly Qualified 2006 SLIP
          Candidates....................................................................... 55
Chart 24: 2006 SLIP Candidate Membership in the American
          Constitution Society and the Federalist Society ................ 56
Chart 25: Political Affiliations of 2006 SLIP Candidates .................... 57
Chart 26: Political Affiliations of Academically Highly Qualified
          2006 SLIP Candidates ...................................................... 58




                                             iv
I.     Introduction

      This report describes the Office of the Inspector General’s (OIG)
and the Office of Professional Responsibility’s (OPR) joint investigation
concerning whether the political or ideological affiliations of applicants
were improperly considered in the selection of candidates for the
Attorney General’s Honors Program and the Summer Law Intern
Program (SLIP) from 2002 to 2006. The Honors Program is a highly
competitive hiring program for entry-level attorneys in the Department
of Justice (Department or DOJ), while the SLIP is a competitive paid
summer internship program in the Department.

      Allegations regarding the politicization of the Honors Program and
SLIP hiring process received widespread public attention in April 2007
as a result of a letter to Congress anonymously signed by “A Group of
Concerned Department of Justice Employees.” 1 The OIG and OPR
already were jointly investigating issues related to the removal of certain
United States Attorneys, and we decided to expand the scope of our
investigation to include allegations regarding Honors Program and SLIP
hiring.

      The OIG/OPR investigation examined Honors Program and SLIP
hiring from 2002 to 2006. As explained in more detail in Section II, the
hiring process for the Honors Program and SLIP was significantly
changed in 2002 when the involvement of political appointees at the
Department in the hiring process was greatly expanded.

      Our investigation examined: (1) whether Department
components used political or ideological affiliations in assessing
candidates for the Honors Program and SLIP, and (2) whether the
Screening Committee convened each year by the Office of the Deputy
Attorney General (ODAG) to review the list of candidates chosen by the
various Department components improperly considered political or
ideological affiliations in deciding whether to approve interviews of these
candidates.

      This OIG/OPR investigation was conducted by a team of OIG and
OPR attorneys and OIG program analysts. The team interviewed more
than 70 individuals who participated in the hiring process, including

       1  The letter claimed that a number of highly qualified candidates who had
been selected by career employees to be interviewed for the Honors Program and SLIP
were rejected by a Screening Committee chaired by the Chief of Staff to the Deputy
Attorney General. The letter stated that most of the candidates rejected by the
Committee had Democratic or liberal affiliations.




                                         1
political appointees, career attorneys, and human resources personnel.
The team reviewed thousands of pages of applications, e-mails, and
other documents from the components who participated in the Honors
Program and SLIP between 2002 and 2006; from the Office of Attorney
Recruitment and Management (OARM), which oversees the Honors
Program and SLIP; and from the Office of the Attorney General (OAG),
the ODAG, and the Office of the Associate Attorney General (OASG). In
addition, the team conducted extensive analyses of the applications of
those candidates who had been approved or deselected by the ODAG
Screening Committees each year to determine whether candidates with
apparent liberal or Democratic affiliations on their applications were
treated in the same or disparate manner as candidates with neutral,
conservative, or Republican affiliations. 2

      This report is divided into four sections. Following this
introduction, the second section provides background information on
the history of the Honors Program and SLIP, the changes to the hiring
process in 2002, the complaints about the hiring process that arose
between 2002 and 2006, and the revamping of the process after
complaints and public attention in 2007. The second section also
discusses the standards that govern the Department in hiring career
employees. The third section contains the findings and analysis of the
OIG/OPR investigation, focusing first on the hiring decisions made by
the components and then on the hiring and deselection decisions made
by the ODAG Screening Committees. The fourth section summarizes
conclusions reached by the OIG and OPR and our recommendations for
improvements to the Honors Program and SLIP hiring process.




      2 In this report, the term “deselected” refers to those candidates the Screening

Committees removed from the components’ interview lists.




                                          2
II.    Background on Honors Program and Summer Law Intern
       Program

        The Attorney General’s Honors Program is the exclusive means by
which the Department hires recent law school graduates and judicial
law clerks who do not have prior legal experience. The Department’s
litigating divisions and a few other Department components participate
in the Honors Program hiring process, which is overseen by the
Department’s Office of Attorney Recruitment and Management
(OARM). 3 Traditionally, students and judicial clerks apply for the
Honors Program in late August or early September, interviews are
conducted in October, and offers are extended by the individual
components in November. The Honors Program historically has been
very competitive, with the Department receiving hundreds more
applications than available positions.

       While the Honors Program applications are centrally processed by
OARM, each component individually hires its own Honors Program
attorneys. With few exceptions, all Honors Program positions are
permanent. 4 Many component officials told us that they view the
Honors Program as an extremely valuable recruiting tool and that many
of the Honors Program attorneys spend a significant portion of their
legal careers with the Department.

       The Summer Law Intern Program is the Department’s hiring
program for paid summer interns. 5 Law students apply in the fall for
summer internships following their second year of law school, or
following their third year of law school if they will be entering a judicial
clerkship or full-time graduate law program following graduation.
Hiring for SLIP positions follows the same general schedule and
procedure as the Honors Program, except that SLIP candidates are
interviewed by telephone or are hired based on their applications


       3  In addition to the Department’s litigating divisions, the other Department
components that participated in the Honors Program and SLIP hiring process included
the Federal Bureau of Prisons (BOP), the Executive Office for Immigration Review
(EOIR), the Drug Enforcement Administration (DEA), the Office of Justice Programs
(OJP), the U.S. Trustee Program, and several U.S. Attorneys’ Offices. We list all the
components involved in footnote 10.
        4 The DEA and EOIR offer 1- to 2-year clerkships. The BOP and some

U.S. Attorneys’ Offices hire Honors Program attorneys for 2-year term appointments
that can lead to permanent employment.
        5 Many components also use volunteer student interns. These volunteers do

not receive a salary and are not hired as part of the SLIP.




                                         3
without an interview. Not all Department components who participate
in the Honors Program also participate in the SLIP.

      A.    Changes to Hiring Process Made in 2002

     In 2002, the Honors Program and SLIP hiring process was
fundamentally changed as a result of recommendations from a Working
Group of senior officials from the offices of the Attorney General,
Deputy Attorney General, and Associate Attorney General.

      Prior to that time, the number of Honors Program applications
had begun to decline and, according to the members of the Attorney
General’s Working Group we interviewed, Department leadership
wanted to increase both the quantity of applications and the quality of
the candidates who were applying. In addition, Working Group
members said they were concerned that the Department was not
successfully competing with law firms and other employers to attract
the highest quality candidates. Because it was the “Attorney General’s”
Honors Program, Working Group members said that Attorney General
Ashcroft wanted to ensure that the program maintained its prestige and
attracted the highest quality candidates for all the participating
components.

      In addition, the Department had been planning to eliminate the
paper-based application system for the Honors Program and SLIP and
instead require candidates to submit applications electronically using a
computerized program called Avue Digital Services (Avue). Using Avue,
the Department’s components could view applications online and
designate the candidates they wanted to interview. The Attorney
General’s Working Group directed OARM to begin the automated
process in the 2002 hiring cycle so that it could implement other
changes the Working Group had recommended.

       The Attorney General’s Working Group also determined that
rather than sending career Department attorneys to various locations
across the country to conduct regional interviews, all Honors Program
candidates would be brought to Washington, D.C., at the Department’s
expense, for interviews. According to the members of the Working
Group we interviewed, this change was intended to allow more
Department attorneys, particularly political appointees in leadership
positions, to participate in the interview and hiring process.
Department officials also told us that they hoped that providing
candidates an opportunity to meet senior Department officials in
Washington, D.C., would attract more candidates and allow the
Department to better compete with law firms for the best candidates.



                                   4
       Therefore, in July 2002 the Attorney General’s Working Group
directed that component heads appoint someone from their front offices
to coordinate Honors Program hiring in their components. Senior
Department officials also were encouraged to speak at top law schools
to recruit applicants for the Honors Program. In addition, a Screening
Committee, composed of several members of the Working Group,
reviewed and approved the candidates who the components selected for
interviews in the 2002 Honors Program and SLIP. 6

       The changes implemented in 2002 remained in effect until 2006.
While the composition of the Screening Committee changed from year to
year, in general the components did not know who served on the
Screening Committee or what criteria it applied in reviewing candidates.
In addition, the Screening Committee gave no reasons or explanations
for its decision to deselect a candidate from the list of those to be
interviewed.

      As discussed in greater detail in Section III, after changes to the
candidate screening process were implemented in 2002, a few
complaints arose that the hiring process had been politicized. However,
OARM officials reported that they received few complaints about the
process or the decisions of the Screening Committee during 2003
through 2005. That changed in 2006 when OARM reported that many
complaints surfaced after the Screening Committee took weeks, rather
than the normal 2 days, to conduct its review, and deselected an
unusually large number of seemingly qualified Honors Program and
SLIP candidates.

       As a result of the complaints and controversy in 2006, the
Department changed the hiring process in 2007. Among other changes,
the screening function performed by political appointees during the
previous 4 years was replaced with a Screening Committee composed of
career employees. In Section III, we describe in more detail the changes
to the hiring process in 2007 and how it currently operates.

      In the sections that follow, we discuss the evidence we found
regarding Honors Program and SLIP hiring from 2002 through 2006.
We then examine the hiring in 2006 in more detail, because in that year
there were many more complaints that political considerations were
used in the hiring process.



       6 Although the Working Group focused on the Honors Program, many of the
changes, such as automated applications and screening of candidates, were
implemented for SLIP candidates as well.




                                       5
      First, however, we briefly summarize the legal requirements that
apply to hiring for career attorney positions in the Honors Program.

      B.      Department Hiring Standards

       Positions for DOJ attorneys fall into two broad categories:
political and career. It is not improper to consider political or
ideological affiliations when hiring for DOJ political positions. However,
as discussed below, both DOJ policy and civil service law prohibit
discrimination in hiring for DOJ career positions on the basis of
political affiliations. This prohibition applies to attorneys hired for
permanent positions through the Honors Program as well as summer
interns hired through the SLIP, because these are considered career
positions.

     The Department’s policy on nondiscrimination is contained in the
Code of Federal Regulations, Section 42.1(a) of 28 C.F.R. Part 42,
Subpart A, which states:

      It is the policy of the Department of Justice to seek to
      eliminate discrimination on the basis of race, color,
      religion, sex, sexual orientation, national origin, marital
      status, political affiliation, age, or physical or mental
      handicap in employment within the Department and to
      assure equal employment opportunity for all employees and
      applicants for employment (emphasis added).

While the regulation does not define “political affiliation,” courts have
considered political affiliation to include “commonality of political
purpose, partisan activity, and political support.” See, e.g., Curinga v.
City of Clairton, 357 F.3d 305, 311 (3d Cir. 2004).

       OARM, the Department component with primary responsibility
for overseeing career attorney hiring, states on its website:

      The U.S. Department of Justice is an Equal Opportunity/
      Reasonable Accommodation Employer. Except where
      otherwise provided by law, there will be no discrimination
      based on color, race, religion, national origin, politics,
      marital status, disability, age, sex, sexual orientation,
      status as a parent, membership or nonmembership in an
      employee organization, or personal favoritism (emphasis
      added). 7


      7   See www.usdoj.gov/oarm/attvacancies.html.




                                        6
      In addition to Department policies, the Civil Service Reform Act
(CSRA) prohibits the Department from discriminating in hiring for
career positions based on political affiliation. For example, the CSRA
states that federal agencies must adopt hiring practices for career
employees in which

       selection and advancement should be determined solely on
       the basis of relative ability, knowledge, and skills, after fair
       and open competition which assures that all receive equal
       opportunity.

5 U.S.C. § 2301(b).

      Moreover, the CRSA sets forth a series of merit system principles
by which federal agencies are to manage personnel decisions. One
principle directly addresses employment discrimination:

        All employees and applicants for employment should
        receive fair and equitable treatment in all aspects of
        personnel management without regard to political
        affiliation, race, color, religion, national origin, sex,
        marital status, age, or handicapping condition, and with
        proper regard for their privacy and constitutional rights.

5 U.S.C. § 2301(b)(2) (emphasis added).

        Another section of the CSRA also prohibits the consideration of
political affiliation in personnel matters involving career employees.
Section 2302(b)(1)(E) prohibits “discriminat[ing] for or against any
employee or applicant for employment . . . on the basis of . . . political
affiliation, as prohibited under any law, rule, or regulation.” 8

       Section 2302(b)(12) of the CSRA makes it unlawful to “take or fail
to take any other personnel action if the taking or failure to take such
action violates any law, rule, or regulation implementing, or directly
concerning, the merit systems principles contained in section 2301 of
this title.” As noted above, one merit system principle is that “all

       8  Use of political affiliation violates Section 2302(b)(1)(E) only when it also
violates some other “law, rule or regulation.” We asked the Department’s Office of
Legal Counsel (OLC) whether 28 C.F.R. § 42.1(a) qualified as a predicate for a violation
of section 2302(b)(1)(E). OLC responded that “[o]ur informal conclusion is that
28 C.F.R. § 42.1 (2007) and the First Amendment constitute ‘law[s], rule[s] or
regulation[s]’ that prohibit considering political affiliation in hiring career attorneys to
Excepted Service Schedule A positions at DOJ.” Career attorneys in the Department
are Excepted Service Schedule A positions.




                                             7
employees and applicants for employment should receive fair and
equitable treatment in all aspects of personnel management without
regard to political affiliation . . . .” 5 U.S.C. § 2301(b)(2).

       These policies and laws do not define “political affiliation.”
Nonetheless, identifying candidates as “liberal” or “conservative” based
on the activities or organizations with which they are affiliated can be
used as a proxy for political affiliation and thus can violate CSRA’s
prohibition. As we demonstrate later, some members of the Screening
Committee in 2006 used liberal and conservative affiliations as a proxy
for political affiliation.

       Using ideological affiliation can also create the appearance that
candidates are being discriminated against based on political affiliation.
In addition, using political or ideological affiliation can violate the
requirement that the government use hiring practices for career
positions that ensure it identifies qualified applicants through fair and
open competition. See 5 U.S.C. §§ 2301(b)(1) – (2).

        As a result, Department policy and the CSRA prohibit using
political affiliations and may also prohibit using certain ideological
affiliations in assessing candidates for the Honors Program and SLIP.




                                    8
III.   Hiring for Honors Program and SLIP from 2002 to 2006

       A.      Component Selection Process

       This section examines whether Department components
considered politics or ideology in selecting Honors Program and SLIP
candidates to interview and hire. The allegations we received during
this investigation that political and ideological affiliations were
considered as factors in evaluating candidates largely centered on the
decisions of the Screening Committee. We also received complaints
that the Civil Rights Division used political considerations in hiring for
the Honors Program. In addition, three Department career employees
we interviewed said they suspected that, in two separate instances, a
political appointee involved in the Criminal Division’s hiring process
may have taken political and ideological factors into account when
making decisions about candidates.

      In this section, we summarize the hiring process that different
components used in the Honors Program and SLIP and we describe the
involvement of political appointees in each component. We also address
the concerns raised regarding the Criminal Division’s hiring process.
The issues concerning the Civil Rights Division’s hiring practices are
being examined in our separate investigation on the hiring, transfer,
and case assignment decisions in the Civil Rights Division. Thus, for
purposes of this section, references to “the components” do not include
the Civil Rights Division unless otherwise specified. 9

               1.      Overview of Processes Used by the Components

      We determined that in addition to the Civil Rights Division, 14
components, and 3 U.S. Attorneys’ Offices participated in the Honors
Program and SLIP between 2002 and 2006. 10 Chart 1 shows the

       9 The investigation regarding the Civil Rights Division is ongoing. Our findings

from that investigation will be contained in a separate report when the investigation is
completed. In addition, the OIG and OPR are jointly investigating the removal of
various U.S. Attorneys and allegations of politicized hiring decisions by Monica
Goodling and others. The results of these investigations, which are also ongoing, will
be described in forthcoming reports.
        10 The 15 participating components included the 6 Department litigating

divisions – Antitrust, Civil, Civil Rights, Criminal, the Environmental and Natural
Resources Division (ENRD), and Tax – and the Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF), BOP, DEA, EOIR, the Office of Information and Privacy, the
Office of Intelligence Policy Review, the Office of Justice Programs, the Professional
Responsibility Advisory Office (PRAO) and the Executive Office for U.S. Trustees. The
                                                                                  (Cont’d.)


                                            9
average number of Honors Program and SLIP candidates that were
hired each year by each of the major components that participated in
the Honors Program and SLIP during this period.

Chart 1: Average Number of Honors Program and SLIP Candidates
 Hired Each Year by Select Components between 2002 and 2006

  35

                                                           30
  30

                          25 25
  25
            21

  20
       17                                                            17                Honors
                                                  15                                   SLIP
  15                                                                      13
                     12
                                          10 11                 11
  10
                                  7
                 6
   5                                                                           4
                                                       2
                                      0                                            0
   0
        ATR      BOP      CIV     CRM     CRT     ENRD     EOIR      TAX       UST

 ATR – Antitrust Division; BOP – Federal Bureau of Prisons; CIV – Civil Division;
 CRM – Criminal Division; CRT – Civil Rights Division; ENRD – Environmental and
 Natural Resources Division; EOIR – Executive Office for Immigration Review; TAX –
 Tax Division; UST – U.S. Trustees.

       Each component was responsible for screening applications in
the Avue system to identify candidates to interview and for submitting
its candidates to OARM for approval by the Screening Committee. After
these candidates were approved or deselected by the Screening
Committee, each component was responsible for interviewing the
candidates and selecting which candidates would receive offers.

three U.S. Attorneys’ Offices were the Southern District of California, the Western
District of Michigan, and the Western District of Texas. As discussed in footnote 4, all
Honors Program attorneys were hired for permanent positions with the exception of
applicants hired in the BOP, DEA, EOIR, and some U.S. Attorneys’ Offices. In
addition, the Immigration and Naturalization Services (INS) hired 25 Honors Program
attorneys and 7 SLIP interns during the fall 2003 hiring cycle, but did not participate
in the Honors Program or SLIP after that because the INS was transferred to the
Department of Homeland Security in 2003. Finally, the Office of Legal Counsel and
the Office of the Solicitor General each hired only a few SLIP interns each year.




                                             10
       In 2002, after the Attorney General’s Working Group had directed
that changes be made to the Honors Program screening and interview
process, Andrew Hruska, then Senior Counsel to the Deputy Attorney
General, met with the component heads of the Department’s litigating
divisions to explain the new process. He told them that component
heads or their immediate front office staff should decide which Honors
Program candidates they wanted to interview and to interview every
candidate themselves. We found that as a result of this directive,
participation by the political leadership of most components in the
hiring process increased in 2002, but significantly dropped off after
that.

      We also determined that, other than the directive by Hruska in
2002 to increase the participation of the political leadership of the
components, the components were not given other guidance from the
Department on how to conduct their selection process for Honors
Program and SLIP hiring. A few components told us that they received
guidance from the human resource officers within their components on
the hiring process.

       We found that, in general, the major criteria considered by the
components from 2002 through 2006 included grades, quality of law
school, judicial clerkships, law review experience, work experience, and
a demonstrated interest in public service. Several of the components’
selecting officials told us that they considered it a positive factor when a
candidate had a federal clerkship, particularly a federal appellate
clerkship. In addition, some components looked for experience that
indicated an interest or expertise in the type of law practiced by that
component. For example, the Antitrust Division valued a background
in economics, ENRD a background in environmental issues, and the
Civil Division’s Office of Immigration Litigation (OIL) or EOIR a
background in immigration law.

       The litigating divisions – Antitrust, Civil (with the exception of
OIL), Criminal, ENRD, and Tax – told us that they attracted high-
quality candidates who attended top-tier law schools or who were
highly ranked at their law schools. In contrast, other components such
as ATF, BOP, DEA, EOIR, OJP, and PRAO reported that they had more
difficulty attracting candidates with top grades or from the top-ranked
law schools. As a result, they did not rely solely on academic standing
and often placed greater emphasis on factors such as interest and
expertise in their components’ subject matter. For candidates who
made it to the interview stage, the selecting officials said that
performance in interviews, writing samples, and references were also
considered.



                                    11
       The components employed a variety of processes to select
candidates for the Honors Program and SLIP. With the exception of the
Criminal Division, which we discuss below, and the Civil Rights
Division, which will be the subject of a separate report, the witnesses
we interviewed from the other components said that they did not
observe any evidence that either political officials or career employees
involved in the components’ part of the hiring process considered
political or ideological affiliations in selecting candidates. In addition,
our review of documents and e-mails did not reveal any evidence that
those components took into account political or ideological affiliations.

      We summarize below the selection process used by each of the
components and the involvement of political appointees in that process.
We discuss the Criminal Division last, including the concerns raised by
three Criminal Division employees involved in the selection process.

            2.     Summary of Processes Used by Individual
                   Components

        The Antitrust Division used career attorneys to review
applications, and almost all of the Antitrust Division interviewers were
career attorneys. An Antitrust Division human resources official told us
that the Division was generally aware of a directive that had been sent
at some point from the Department to involve political appointees in
interviews. However, she said the Division usually included a career
employee from the Assistant Attorney General’s office rather than a
political appointee because the political appointees were too busy to
attend the interviews. All Antitrust Divisions employees we interviewed
reported that they did not see any signs of political or ideological
affiliations being taken into account during the component’s review of
Honors Program or SLIP applications or during the interview process.

       A human resources officer in the Civil Division told us that in
2002, three or four Counsels in the Division’s front office who were
political appointees and one career employee detailed to the front office
reviewed applications and determined who to interview. She said this
process was used in response to the directive that the front office
should be involved in all aspects of the hiring process. However, she
said there were no complaints about the selection process, and the
committee appeared to make its selections based on merit.

       The Civil Division human resources officer said that the
involvement of front office political appointees dropped off significantly
after 2002. Several other Civil Division employees confirmed that after
2002 the Civil Division’s Honors Program and SLIP hiring process was
handled almost entirely by career employees. All Civil Division


                                    12
employees we interviewed reported that they had not seen any evidence
of political or ideological affiliations being taken into account during the
component’s review of applications or during interviews.

        In the Environmental and Natural Resources Division, a
committee composed of two senior career attorneys and one political
official reviewed the applications and compiled the list of candidates to
be interviewed. One ENRD attorney recalled that they were instructed
to have a politically appointed official at every interview. The attorney
said this was impractical because of the busy schedules of the political
officials. The attorney said that after Attorney General Ashcroft’s
tenure, the interviews were primarily conducted by career employees.
He said that the interviewers would meet as a group at the conclusion
of all interviews to determine whom to recommend for hiring, and the
list would be submitted to the Assistant Attorney General for ENRD for
approval. Other witnesses recalled that occasionally the Assistant
Attorney General would remove a candidate or two from the list, but
these candidates were always near the bottom of the list and the cuts
could be explained by lack of merit. All ENRD employees we
interviewed reported that they did not see any signs of political or
ideological affiliations being taken into account during the component’s
review of applications or during the component’s interview process.

        Witnesses from the Tax Division told us that their Division used
primarily career employees to screen applications and conduct
interviews. After the interviews, the interviewers would meet as a group
to determine who would receive offers. According to one witness,
usually one political employee participated in this meeting in which
candidates were discussed. This witness said this political official only
commented upon candidates’ academic qualifications and did not
appear to take into account the candidates’ political or ideological
affiliations. All Tax Division employees we interviewed reported that
they did not see any evidence of political or ideological affiliations being
taken into account during the Division’s review of applications or
during the Division’s interview process.

      The witnesses we interviewed from all the non-litigating
components reported that they used only career employees to screen
and interview candidates. They told us they were not aware of political
or ideological affiliations being taken into account in their respective
components’ selection process.

       The three U.S. Attorneys’ Offices that participated in the Honors
Program and SLIP hired a total of only four candidates from 2002 to
2006. No one alleged that political or ideological affiliations were used
as a factor in selecting these candidates.


                                    13
       With regard to the Criminal Division, a Division human resources
officer told us that the human resources staff would pick the top 400
Honors Program candidates based on academic standing and then
divide those applications among the 7 to 10 career attorneys who were
on the hiring committee. 11 Each committee member would individually
review approximately 40 applications and pick the top 10 in the group.
The recommendations of the committee members formed the list of
candidates that the Criminal Division submitted to the Screening
Committee for approval to interview.

       Teams of Criminal Division political appointees and career
employees conducted the interviews. All selecting officials would meet
after the interviews to compile a list of the top-tier candidates in rank
order, which would be given to a Criminal Division Deputy Assistant
Attorney General (DAAG) for approval. Witnesses told us that the
various Criminal Division DAAGs did not always follow the rankings on
the list and occasionally made offers to candidates who were lower on
the list of top-tier candidates or who had been interviewed but had not
made the top-tier list.

        Three career employees told us they were concerned that on one
occasion Deputy Chief of Staff Robert Coughlin, a political official on
the hiring committee, may have taken into account candidates’ political
or ideological affiliations. One career employee wondered whether
Coughlin rejected one highly qualified candidate because of the
candidate’s liberal affiliations. Two other career employees wondered
whether Coughlin voted to accept a less qualified candidate because of
the candidate’s conservative and Republican Party affiliations. The
candidate with liberal affiliations was rated highly by the career
employees who interviewed him, but he did not receive an offer.
Conversely, the candidate with conservative and Republican Party
affiliations was not rated highly by the career employees who
interviewed him yet received an offer of employment.

      The career employees also told us that when they questioned
Coughlin about his ranking of candidates during the group meeting in
which the candidates were ranked, Coughlin stated that he was basing
his recommendation on his reactions to the candidates’ interview
demeanor and interview skills.

       In our interview of him, Coughlin told us he never considered
political or ideological affiliations in evaluating Honors Program


      11   The Criminal Division did not participate in the SLIP from 2002 to 2006.




                                          14
candidates. While Coughlin said he did not recall any details
concerning the specific candidate with liberal affiliations, he recalled
that he recommended the candidate with conservative affiliations
because the candidate had received a strong recommendation from a
previous internship with the Criminal Division and not because of the
candidate’s ideological affiliations.

       We reviewed the two candidates’ applications and determined
both candidates had been ranked as having strong credentials, such as
federal appellate clerkships or high grades that indicated the
candidates were qualified. In addition, Coughlin’s stated reasons to his
colleagues and to us for his decisions – the strength of the candidates’
performances in interviews and high recommendations from a previous
internship with the Department – can be appropriate bases to choose
between two otherwise qualified candidates. Further, our other witness
interviews and our review of documents and e-mails did not reveal
evidence that Coughlin considered political or ideological affiliations
when making his recommendations. Accordingly, we did not conclude
that Coughlin used inappropriate factors in choosing between the two
candidates.

       In sum, we found that while the components had slightly different
selection processes and criteria for selecting candidates to be forwarded
to the Screening Committee, the processes were largely controlled by
career employees, particularly after 2002. Moreover, the components
considered relevant criteria, including grades, quality of law school,
judicial clerkships, law review experience, and work experience,
particularly work experience that related to the components’ areas of
expertise. We did not find evidence indicating that the components
considered political or ideological affiliations in selecting candidates. As
for the Criminal Division, while concerns were raised by several
employees, we did not find sufficient evidence to conclude that political
or ideological affiliations were used either to approve or eliminate
candidates for the Honors Program.

      B.    The 2002 Screening Committee

      In this section we examine whether the Screening Committees
that Department leadership formed each year from 2002 through 2006
considered politics or ideology in approving or deselecting Honors
Program and SLIP candidates that the components wanted to interview.
We examine in turn the decisions made by each year’s Screening
Committee, beginning with 2002.

     For each year, we provide a summary of our review of documents
and witness interviews. We also describe the data analysis we


                                    15
conducted to determine if there were any patterns in the approval and
deselection rates between candidates with differing affiliations on their
applications.

              1.     Process Used by the Screening Committee

       We examined the documentary evidence from the Attorney
General’s Working Group that formulated the changes to the Honors
Program and SLIP hiring process in 2002, including what criteria
should be used in approving candidates for interviews. 12 E-mails
indicated the Working Group suggested a range of factors to evaluate
applicants, including considering only applicants who met at least one
of the following criteria: ranked within the top 20 percent to 33 percent
of the law school class, had a federal judicial clerkship, was a member
of a law review, or attended one of the top 10 to 20 law schools
identified by U.S. News and World Report. However, according to the
Working Group members we interviewed, the Working Group did not
reach a consensus on what criteria to require the components to use.

        We did not find any evidence in the e-mails indicating that the
Working Group members considered using political or ideological
affiliations as criteria to evaluating the candidates. In addition, all
Working Group members we interviewed said that political or
ideological affiliations were never discussed as criteria to be used in
screening candidates. For example, Christopher Wray, then Principal
Associate Deputy Attorney General, said that politics and ideology only
arose in the context of the concern of trying to be more inclusive. He
said there was a perception that in past administrations the career
employees doing the screening may have weeded out candidates
because the selecting officials were not “comfortable with their political
persuasion.” He said the political persuasion he was referring to
pertained to candidates who had been in the military or law
enforcement, “whether you call that conservative or not.”

      We also examined the process used by the Screening Committee
in 2002 to approve or deselect candidates that the components
submitted for interviews. In 2002 the components submitted to the
Screening Committee a list of 911 Honors Program applicants they

       12 Andrew Hruska, then Senior Counsel to the Deputy Attorney General,
described himself as the “scribe” of the Working Group and the point-of-contact for
OARM. The other Working Group members were Adam Ciongoli, then Counselor to
the Attorney General; Paul Clement, then Principal Deputy Solicitor General; David
Higbee, then Deputy Associate Attorney General; Howard Nielson, then Counselor to
the Attorney General; and Christopher Wray, then Principal Associate Deputy
Attorney General.




                                         16
wanted to interview. However, OARM said that based on that year’s
budget, only approximately 600 candidates could be brought to
Washington, D.C., to be interviewed. Therefore, the Screening
Committee had to pare down the list of nominated Honors Program
candidates by approximately one-third.

       The components also chose 498 candidates to interview for SLIP
positions via telephone. OARM said that because the SLIP candidates
were not being brought to Washington for interviews, there was no
budgetary reason to limit the number of SLIP interviewees. 13

      Based on e-mails we reviewed and interviews we conducted, we
determined that Andrew Hruska, then Senior Counsel to the Deputy
Attorney General, and David Higbee, then Deputy Associate Attorney
General, participated in the screening process, and that Howard
Nielson, then Counselor to the Attorney General, and Adam Ciongoli,
then Counselor to the Attorney General, may also have participated in
the screening process. We refer to these four individuals as the
Screening Committee.

       Hruska and Higbee recalled participating in the screening process
but could not recall with certainty who else was involved. Nielson said
he believed that he may have participated, but said he could not recall
with certainty. Ciongoli said he recalled attending an initial meeting
where the screening process was discussed, but did not recall
participating in the screening itself. According to e-mails, OARM
trained Hruska, Higbee, Nielson, and Ciongoli on using the Avue system
around the time the Screening Committee conducted its review. All
four told us that their involvement with the Honors Program and SLIP
was a very small part of their work duties, and because of that and the
passage of the time they said they had difficulty recalling with
specificity anything about their work on Honors Program and SLIP
hiring.

      Hruska and Higbee told us they recalled individually reviewing
applications rather than meeting as a group to review them. Hruska
said he did not recall how the final decisions were made. Higbee said
he believed the each screener reviewed the same set of applications and
that someone in the Deputy Attorney General’s office tallied the votes
and made the final decisions.



       13  Hruska said he believed there were constraints other than the travel budget
that required the number of SLIP candidates to be cut, but he could not recall what
those constraints were.




                                         17
        With one exception, our review of e-mails did not disclose
evidence that the Committee members discussed political or ideological
affiliations in evaluating the candidates. However, in one e-mail
exchange Hruska forwarded an application from a candidate from
Montana to William Mercer, then U.S. Attorney for the District of
Montana. Hruska asked Mercer if this was “someone we want at DOJ?”
Mercer responded by e-mail that he was inquiring with a reference the
candidate listed whom Mercer knew to find out “the scoop on intellect,
personality, etc.” Mercer added:

      My initial reaction is that the guy is probably quite liberal.
      He is clerking for a very activist, ATLA-oriented justice. 14
      His law review article appears to favor reintroduction of
      wolves on federal lands, a very controversial issue here
      which pits environmentalists against lots of other interests,
      including virtually all conservative and moderate thinkers.
      I know of better candidates through our internship and
      clerkship programs who have applied to the honors
      program.

       When we questioned Mercer about this e-mail, he said he did not
recall being asked about this candidate, although he had a vague
recollection of talking to the reference named in the candidate’s
application about the candidate. Mercer said he probably assumed that
Hruska was asking about a candidate for a political appointment such
as a special assistant, rather than for the Honors Program. However,
Mercer said he could not say why he referred to the Honors Program in
his e-mail. He said he understood in 2002 that while the candidates’
liberal affiliations would have been legitimate considerations for a
political position, they would not have been legitimate considerations
for an Honors Program position. 15

      We determined that the Screening Committee deselected 307
Honors Program candidates and approved 604, while it deselected 185
SLIP candidates and approved 313.

      Hruska said he recalled that the Committee was pressed for time
and that the Committee members had trouble getting the application
materials to review either in print or on the computer. He said that it
was a more scattered review process and not the complete analysis that
he originally had envisioned. Hruska and Higbee said that they used

      14   ATLA refers to the American Trial Lawyers Association.
      15   This candidate was deselected by the 2002 Screening Committee.




                                          18
criteria such as grades, quality of law school, extracurricular activities,
and clerkships to evaluate the candidates. Hruska, Higbee, Nielson,
and Ciongoli all said they had no reason to believe that anyone
considered political or ideological affiliations in screening the
candidates. 16

      At the time, some newspaper articles reported concern within the
Department about the changes in the Honors Program hiring process. 17
OARM Director Louis DeFalaise said that he was aware of general
complaints in 2002 that the process had been taken away from the
career employees and transferred to political appointees (with the
implication that the changes had politicized the process), although
DeFalaise said no one specifically complained to him that political or
ideological affiliations were considered in the screening process.

               2.      2002 Honors Program and SLIP Data Analysis

        We conducted extensive data analysis of the applications of
Honors Program and SLIP candidates who were approved or deselected
by the Screening Committee in 2002 to detect any patterns in the
approval and deselection rates between candidates with differing
affiliations. First, we examined the work experience and extracurricular
activities of all candidates reviewed by the Screening Committee and
compared the deselection rates for candidates who had affiliations with
liberal groups on their applications with the deselection rates for
candidates who listed affiliations with conservative groups. 18


       16 Our review of the records indicates that at least two components, ENRD

and the Civil Division, complained that the Screening Committee had cut quality SLIP
candidates without explanation. Hruska said he believed the Committee resolved
those complaints, but he could not recall the specifics.
        17 For example, a 2003 Washington Post article reported that the Honors

Program had been moved “firmly under the control of Attorney General John D.
Ashcroft and his senior aides, prompting complaints that the effort is being politicized,
according to current and former department officials.” Dan Eggen, Justice Dept.
Hiring Changes Draw Fire; Law Grads Chosen Based on Politics, Say Critics, The
Washington Post, Jan. 12, 2003.
        18  We recognize that these determinations are not precise and that
categorizing organizations as liberal or conservative can be somewhat subjective. The
appendix contains a listing of those organizations we categorized as liberal or
conservative in our analysis of the candidates’ affiliations. For example, we
categorized as “liberal” organizations promoting causes such as choice in abortion
issues, gay rights, defense of immigrants, separation of church and state, and privacy
rights. Examples of organizations we considered liberal include Earthjustice, the
American Civil Liberties Union, Planned Parenthood, Lambda Law Association, and
Ayuda. We categorized as “conservative” groups promoting causes such as defense of
religious liberty, traditional family values, free enterprise, limited government, and
                                                                                   (Cont’d.)


                                            19
       Second, we examined the applications of deselected candidates
who met high academic standards to determine if there were any
differences in the deselection rates between highly qualified candidates
with liberal affiliations on their applications and highly qualified
candidates with conservative affiliations.

        Third, we separately analyzed the applications for candidates who
listed membership in the Federalist Society, a group generally
considered to be conservative, and the American Constitution Society, a
group generally considered to be liberal, to determine if there were any
differences in the deselection rates for candidates who reported an
affiliation with either group. 19

        Finally, we examined the candidates’ applications to determine
whether the candidate listed work experience or membership with a
Republican or Democratic politician or organization. We grouped these
candidates as “Republican Party affiliated” or “Democratic Party
affiliated” and compared the deselection rates between these two
groups.

      The results of our analysis for the Honors Program and SLIP
candidates that were reviewed by the 2002 Screening Committee are
discussed in the sections below.

                       a.      2002 Honors Program Data Analysis

        As noted above, OARM stated that the 2002 budget could only
support bringing approximately 600 candidates to Washington for
interviews. We found that 11 components submitted 911 Honors
Program applicant names to the Screening Committee for review, of
which 604 (66 percent) were approved and 307 (34 percent) were
initially deselected by the Screening Committee. The components
subsequently appealed 20 deselected candidates and the Committee
agreed that all of those candidates could be interviewed.


right to life issues. Examples of groups we considered conservative include the
Federalist Society, the Alliance Defense Fund, the Christian Legal Society, and the
Family Research Council. In reviewing candidates’ applications, we considered a
candidate’s affiliations to be “neutral” if the organizations listed did not have an
apparent liberal or conservative viewpoint, or if the candidate listed affiliations with
both liberal and conservative organizations.
        19 According to its website, the Federalist Society for Law and Public Policy
Studies is “a group of conservatives and libertarians interested in the current state of
the legal order.” www.fed-soc.org (accessed May 9, 2008). The American Constitution
Society for Law and Policy, according to its website, “is one of the nation’s leading
progressive legal organizations.” www.acslaw.org (accessed May 9, 2008).




                                            20
          Chart 2: 2002 Honors Program Candidate Universe

    700

               604 (66 percent)
    600


    500


    400

                                          307 (34 percent)
    300


    200


    100
                                                                  20 (2 percent)
      0
                  Approved                  Deselected        Reinstated After Appeal




                                  (1)   Ideological Affiliations

        Based on the results of our analysis of the applications, we found
that 100 (11 percent) of the candidates nominated by the components
had liberal affiliations, while 46 (5 percent) had conservative affiliations,
and 765 (84 percent) had neutral affiliations. Chart 3 shows the
approval and deselection rates for candidates grouped by their
affiliations. 20




       20 The appendix contains the listing of affiliations that we categorized as

conservative or liberal.




                                             21
      Chart 3: Affiliations of 2002 Honors Program Candidates

      600
                                                         542

      500


      400


                                                                          Approved
      300
                                                                          Deselected
                                                                 223

      200


      100                 80
                                      42
                  20
                                              4
        0
                Liberal (n=100)   Conservative (n=46)   Neutral (n=765)



       As the chart indicates, the Screening Committee deselected 80
(80 percent) of the 100 applicants with liberal affiliations, 4 (9 percent)
of the 46 applicants with conservative affiliations, and 223 (29 percent)
of the 765 candidates with neutral affiliations.

        We next examined a subset of deselected candidates who met
high academic standards to determine if there were any differences in
the deselection rates between highly qualified candidates with liberal
affiliations and highly qualified candidates with conservative affiliations.
We considered candidates to be highly qualified if they met each of the
four criteria that the Working Group had discussed in evaluating
applicants:

            •   Attended a top 20 ranked law school, 21
            •   Was in the top 20 percent of the class,
            •   Had a federal judicial clerkship, and
            •   Was a member of the law review.




       21  We used the top 20 law schools in 2002 as ranked by U.S. News and World
Report: Yale, Stanford, Harvard, Columbia, New York University, University of
Chicago, University of Michigan, University of California at Berkeley, Duke, University
of Pennsylvania, Northwestern, Cornell, Georgetown, University of Texas, University of
California at Los Angeles, Vanderbilt, University of Iowa, University of Minnesota,
University of Southern California, and Washington and Lee.




                                              22
       There were a total of 71 candidates selected by the components
who met all four criteria. Forty-five (63 percent) were approved by the
Committee, and 26 (37 percent) were deselected. Chart 4 illustrates the
breakdown of approved and deselected applicants who met all of these
criteria.

             Chart 4: Affiliations of Academically Highly
             Qualified 2002 Honors Program Candidates

      40                                             37
      35
      30
      25
                                                                   Approved
      20
                    15                                             Deselected
      15                                                  11
      10
                                  5
       5       3
                                        0
       0
            Liberal (n=18)   Conservative (n=5)   Neutral (n=48)



        The data indicates that the candidates with liberal affiliations
were deselected at a much higher rate (15 out of 18) than candidates
with conservative affiliations (0 out of 5) or candidates with neutral
affiliations (11 out of 48), even though all candidates met the same
criteria.

       We also examined membership in the American Constitution
Society and Federalist Society to determine if there were any differences
in the selection rates for candidates who reported an affiliation with
either of these groups. The following chart describes these results.




                                            23
   Chart 5: 2002 Honors Program Candidate Membership in the
    American Constitution Society and the Federalist Society

     30
                                                  27

     25


     20

                                                                        Approved
     15
                                                                        Deselected

     10
                              7

      5
                                                            2
                     0
      0
            American Constitution Society   Federalist Society (n=29)
                       (n=7)



      We found that all 7 applicants who indicated that they were
American Constitution Society members were deselected by the
Screening Committee for interviews, while 2 of the 29 applicants who
indicated that they were members of the Federalist Society were
deselected. 22

                                  (2)   Political Affiliations

      We next examined those applications where the candidate
indicated he or she worked for a politician or political group. We
grouped these as applicants affiliated with the Democratic Party or the
Republican Party. 23


        22 One of the two deselected Federalist Society members was subsequently

reinstated after appeal.
       23 There were also some cases where the applicants worked for both
Democrats and Republicans. We considered these cases to be neutral. In addition,
there were instances where we were unable to determine which party the applicant
worked for because the information provided on the application was not detailed
enough, such as when an applicant stated he worked for the Senate Judiciary
Committee without any further specification.




                                            24
      Of the 911 applications reviewed by the Committee, 61 contained
information indicating Democratic Party affiliations and 46 contained
information indicating Republican Party affiliations. Chart 6 shows the
approval and deselection rates for each group.

Chart 6: Political Affiliations of 2002 Honors Program Candidates

  600
                                                  545

  500


  400


                                                                  Approved
  300
                                                         259      Deselected


  200


  100
                  43           41
            18                         5
    0
         Democrat (n=61)    Republican (n=46)   Neutral (n=804)



        The proportion of Democratic Party affiliated applicants
deselected by the Screening Committee was significantly higher
(70 percent, or 43 out of 61) than the proportion of Republican Party
affiliated applicants (11 percent, or 5 of 46) or the proportion of neutral
affiliated applicants (32 percent, or 259 out of 804) deselected by the
Committee.

        We also examined the 71 highly qualified candidates (both
approved and deselected) who met all of the Screening Committee’s
criteria and determined that 14 of those candidates indicated an
affiliation with the Democratic or Republican Party. Chart 7 shows the
approval and deselection proportions for these groups.




                                       25
           Chart 7: Political Affiliations of Academically
         Highly Qualified 2002 Honors Program Candidates

  40
                                                 37

  35


  30

  25
                                                         20      Approved
  20
                                                                 Deselected

  15

  10
                  6
           5
  5                             3
                                        0
  0
        Democrat (n=11)      Republican (n=3)   Neutral (n=57)



        We found that the highly qualified candidates meeting all of the
Screening Committee’s criteria whose applications reflected Democratic
Party affiliations were deselected at a higher rate (54 percent, or 6 out
of 11) than highly qualified candidates whose applications reflected
Republican Party affiliations (0 percent, or 0 out of 3) or neutral
affiliations (35 percent, or 20 out of 57).

                      b.   2002 SLIP Data Analysis

      In 2002, 8 components submitted 498 SLIP applicant names to
the Screening Committee for review, of which 313 (63 percent) were
approved and 185 (37 percent) were deselected. No component
appealed any of the deselected applicants. As discussed above, the
components interviewed SLIP candidates by telephone.




                                       26
               Chart 8: 2002 SLIP Candidate Universe

     350
             313 (63 percent)
     300


     250


     200                                185 (37 percent)


     150


     100


      50

                                                                     0
       0
                Approved                  Deselected       Reinstated After Appeal



      Similar to the analysis conducted with the 2002 Honors Program
candidates explained in the previous section, we analyzed the
applications and affiliations of the SLIP candidates who had been
approved or deselected by the Screening Committee.

                                (1)   Ideological Affiliations

      Our analysis of the applications indicated that 81 (16 percent) of
the SLIP candidates had liberal affiliations, 29 (6 percent) had
conservative affiliations, and 388 (78 percent) had neutral affiliations.
Chart 9 shows the approval and deselection rates for candidates
grouped by their affiliations.




                                           27
              Chart 9: Affiliations of 2002 SLIP Candidates

      300
                                                       272

      250


      200


                                                                        Approved
      150
                                                                        Deselected
                                                               116

      100
                        68

       50
                                    28
                13
                                            1
        0
               Liberal (n=81)   Conservative (n=29)   Neutral (n=388)



       Similar to the Honors Program, the proportion of applicants with
liberal affiliations who were deselected by the Committee (68 out of 81,
or 84 percent) was significantly higher than that of applicants with
conservative affiliations deselected by the Committee (1 out of 29, or
3 percent) and applicants with neutral affiliations who were approved
by the Committee (116 out of 388, or 30 percent).

       We designated 112 applicants as highly qualified because they
met at least three out of the four academic criteria that had been
identified by the Working Group as indicative of a qualified candidate. 24
Seventy-five of these applicants were approved (67 percent) by the
Screening Committee and 37 (33 percent) were deselected. Chart 10
shows the ideological affiliations of approved and deselected applicants
who met at least three of the Committee’s criteria.




       24 Because most SLIP applicants are first- or second-year law students, they
would not have received judicial clerkships yet. As a result, we examined a subset of
candidates who met any three of the Screening Committee’s four criteria of quality
candidates.




                                            28
       Chart 10: Affiliations of Academically Highly Qualified
                        2002 SLIP Candidates

  70
                                                 62
  60


  50


  40
                                                                 Approved
                                                                 Deselected
  30

                   18                                    19
  20


  10        7                  6

                                       0
   0
          Liberal (n=25)   Conservative (n=6)   Neutral (n=81)



        Seventy-two percent (18 out of 25) of the applicants with liberal
affiliations who met at least 3 of the Committee’s academic criteria were
deselected, while none of the applicants who indicated a conservative
affiliation and met at least 3 of the Committee’s criteria were deselected.
Twenty-three percent (19 out of 81) of the candidates with neutral
affiliations were deselected.

      Chart 11 illustrates the difference between the approved and
deselected SLIP applicants who listed membership in the American
Constitution Society or the Federalist Society.




                                       29
       Chart 11: 2002 SLIP Candidate Membership in the
     American Constitution Society and the Federalist Society

      14

                            12                  12
      12


      10


       8
                                                                      Approved
                                                                      Deselected
       6


       4


       2
                    1
                                                          0
       0
           American Consitution Society   Federalist Society (n=12)
                     (n=13)



      We found that 12 of the 13 applicants (92 percent) whose
applications indicated that they were American Constitution Society
members were deselected by the Screening Committee for interviews,
while none of the applicants who indicated they were Federalist Society
members were deselected by the Screening Committee for interviews.

                           (2)     Political Affiliations

       We next examined applicants who indicated they worked for a
politician or political group. Chart 12 illustrates the breakdown among
the approved and deselected applicants who listed a Democratic or
Republican Party affiliation on their applications.




                                          30
        Chart 12: Political Affiliations of 2002 SLIP Candidates

  300                                              282


  250


  200


                                                          142      Approved
  150
                                                                   Deselected


  100


   50               39
                                21
             10                         4
    0
           Democrat (n=49)   Republican (n=25)   Neutral (n=424)



        The proportion of Democratic Party affiliated applicants
deselected by the Screening Committee was significantly higher
(80 percent, or 39 of 49) than the proportion of either Republican Party
affiliated applicants (16 percent, or 4 of 25) or neutral candidates
(33 percent, or 142 of 424) deselected by the Committee.

       We also examined the 112 highly qualified applicants (both
approved and deselected) who met at least three out of the four
academic criteria and determined that 12 of those candidates indicated
an affiliation with the Democratic or Republican Party. Chart 13 shows
the approval and deselection proportions for these groups.




                                        31
           Chart 13: Political Affiliations of Academically
              Highly Qualified 2002 SLIP Candidates

     80

     70                                           67


     60

     50

                                                                 Approved
     40
                                                        33       Deselected

     30

     20

     10                         5
              3     4
                                      0
      0
           Democrat (n=7)   Republican (n=5)   Neutral (n=100)



       We found that the highly qualified candidates whose applications
reflected Democratic Party affiliations were deselected at a higher rate
(57 percent, or 4 out of 7) than highly qualified candidates whose
applications reflected Republican Party affiliations (0 percent, or 0 out
of 5) or neutral affiliations (33 percent, or 33 out of 100).

            3.      Conclusions on 2002 Honors Program and SLIP
                    Hiring Process

        The overall data indicated a pattern of deselecting candidates
based on political or ideological affiliations. A disproportionate number
of the deselected Honors Program and SLIP candidates had liberal
affiliations as compared to the candidates with conservative affiliations.
This disproportionate pattern continued to exist when we examined a
subset of highly qualified candidates based on their academic
performance. Similarly, the pattern was evident when we compared
membership in the American Constitution Society versus the Federalist
Society. The disproportionate pattern of deselection was also evident
when we compared applicants with Democratic Party affiliations versus
Republican Party affiliations.




                                          32
      The 2002 Screening Committee did not maintain a record of the
basis for its decisions on individual candidates, nor did it provide any
explanations to the components at the time as to why specific
candidates were deselected. In our interviews with Screening
Committee members, conducted in 2007 and 2008, the members stated
that they did not use political or ideological affiliations in evaluating
candidates and they could not recall the reasons why individual
candidates were accepted or deselected.

      We recognize that the passage of time has made it difficult for
Screening Committee members to recall the basis for their selection or
deselection decisions. However, even at the time it made its decisions
the Screening Committee provided no information to the components
about the deselection decisions or even the criteria the Committee used.

       After we conducted our data analysis, we contacted the 2002
Screening Committee members again for their comments on the pattern
that the data revealed. Hruska, through his attorney, declined an
opportunity to review and comment on the data analysis. The three
members who reviewed the data analysis said that they never would
have considered political or ideological affiliations in considering
candidates for the Honors Program or SLIP. Higbee stated that the data
“surprised” him and that he did not feel like it was a reflection of the
work that he did. He noted that he did not know who made the final
decisions on the applications he reviewed and did not know whether his
recommendations were overruled. 25 Nielson said that he was not
certain that he participated in the screening process. He also said that
he was not in a position to go behind our analysis, but that if he took it
at face value, the results were not what the Department had intended
and could also indicate that the changes the Working Group
implemented were a mistake. Ciongoli stated that he had no
recollection of participating in the screening process, so he could not
comment on the data analysis.

      In sum, the data showed that candidates with Democratic Party
and liberal affiliations apparent on their applications were deselected at
a significantly higher rate than candidates with Republican Party,
conservative, or neutral affiliations. This pattern continued to exist
when we compared a subset of academically highly qualified candidates
from the three groups. However, we found no other evidence that the
members of the Screening Committee intentionally considered political
or ideological affiliations in making their deselections, and the

       25 Higbee also stated that he was not familiar with the American Constitution

Society and what principles it supported.




                                         33
Committee members all denied doing so. While we were unable to
prove that any specific members intentionally made deselections based
on these prohibited factors, the data indicated that the Committee
considered political or ideological affiliations when deselecting
candidates.

      C.     The 2003 to 2005 Screening Committees

       Similar to 2002, each fall between 2003 and 2005 the Office of
the Deputy Attorney General formed a new Screening Committee of four
to five members to review the Honors Program and SLIP candidates who
the components selected for interviews. The members were recruited
from the Office of the Attorney General, Office of the Deputy Attorney
General, and the Office of the Associate Attorney General, with at least
one member from the previous year’s Committee sitting on the newly
formed Committee in 2004 and in 2005.

      We determined from our interviews and document review that the
process followed by the Screening Committee remained the same
between 2003 and 2005.

       Each year, the Screening Committee met at least twice, first to
review the Honors Program candidates and then to review the SLIP
candidates the components wanted to interview. According to the
Committee members we interviewed, each year the Committee followed
a policy that two Committee members had to vote to deselect a
candidate, a policy that was not in place with the 2002 Screening
Committee. 26 The Committee members we interviewed said they
focused on grades, quality of law school, extracurricular activities such
as law review, and work experience, especially clerkships. Matt Zabel, a
former Counsel to the Associate Attorney General who served on the
Screening Committee in both 2003 and 2004, said that he and others
took their screening duty “very seriously” and tried to err on the side of
inclusion because “it’s a big deal to get in through the Honors
Program.”

      The Committee members we interviewed said they were not aware
of any candidates being deselected due to the candidates’ political or
ideological affiliations. Based on the results of our review of documents
and e-mails, we found no evidence that Screening Committee members

       26 We interviewed Matt Zabel, former Counsel to the Associate Attorney
General and a Screening Committee member in 2003 and 2004; Theodore
Cooperstein, former Counsel to the Deputy Attorney General and a Screening
Committee member in 2003 and 2004; and Wendall Taylor, former Counsel for the
Deputy Attorney General and a Screening Committee member in 2004 and 2005.




                                      34
considered political or ideological affiliation in evaluating the candidates
from 2003 to 2005.

      In addition, we found that the Screening Committee met the tight
deadlines established by OARM and made its decisions within a few
days.

      As described below, we found that each year from 2003 to 2005
the Screening Committee deselected a relatively small number of
Honors Program and SLIP candidates. We also analyzed the credentials
of these deselected candidates to determine if any trends could be
discerned.

            1.     2003 Honors Program and SLIP Data Analysis

      The 2003 Screening Committee deselected 6 out of 635 Honors
Program candidates (1 percent) and 10 out of 553 SLIP candidates
(2 percent) who were nominated by the components for interviews. The
components did not appeal any of the deselected candidates.

       None of the six deselected Honors Program candidates attended a
top 20 law school. Three of the six candidates ranked in the bottom
half of their respective law school classes, while two candidates ranked
in the top 34 to 50 percent of their law school classes and had C grade
averages. The remaining deselected candidate did not provide grades
on his application and attended a law school U.S. News and World
Report ranked in the bottom quarter of the top 100 law schools.

      Of the 10 deselected SLIP candidates in 2003, only 1 attended a
top 20 law school, and that candidate was in the bottom half of his
class. Six additional candidates were ranked in the bottom half of their
respective law school classes, two of the remaining candidates had
grade averages in the C range, and the final candidate had a grade
average in the B range at a law school ranked in the bottom half of the
top 100 law schools by U.S. News and World Report.

      We concluded that the deselection of the 6 Honors Program
candidates and the 10 deselected SLIP candidates could reasonably be
explained by a combination of low class rank, low grades, and
attendance at a lower-tier law school.

            2.     2004 Honors Program and SLIP Data Analysis

     The 2004 Screening Committee deselected 13 out of the 572
Honors Program candidates (2 percent) and 17 out of an undetermined




                                    35
number of SLIP candidates who were nominated by the components for
interviews. 27

      Of the 13 Honors Program candidates deselected in 2004, 9 were
ranked in the bottom half of their respective law school classes. The
four remaining candidates had grade averages in the C range, with one
of those four at a top 20 law school and the other three at schools in
the bottom half of the top 100 law schools ranked by U.S. News and
World Report.

       Of the 17 SLIP candidates deselected in 2004, 12 had grade
averages in the C range. Three candidates had grades in the B range at
schools that were not in the top 20 law schools. The two remaining
candidates were at top 10 law schools, one with a low B grade average
and the other with a majority of “passes” rather than “honors” marks
for grades.

      We concluded that the deselections of these candidates could
reasonably be explained by a combination of low class rank, low grades,
and attendance at a lower-tier law school.

              3.     2005 Honors Program and SLIP Data Analysis

      The 2005 Screening Committee deselected slightly more
candidates than in the previous 2 years: 46 out of 624 Honors Program
candidates (7 percent) and 23 out of 433 SLIP candidates (5 percent)
nominated by the components for interviews.

       Of the 46 Honors Program candidates deselected in 2005, 20
were in the bottom half of their law school classes. Eight candidates
were in the top half of their classes but below the top third. Seven of
those 8 candidates did not attend a top 20 law school, and the
remaining candidate who attended a top 20 law school had a grade
average in the low B range. An additional eight of the deselected
candidates in 2005 attended law schools that did not provide class
ranks, but their applications revealed they had grades primarily in the
B, C, “pass” range, or did not provide grades. While 10 deselected
Honors Program candidates ranked in either the top 20 percent or the
top 33 percent of their law school classes, all 10 of these candidates
attended lower-tier law schools.


       27 The Department was unable to provide the total number of SLIP candidates
components selected in 2004 for interviews. However, the median number of SLIP
applications received in 2002, 2003, 2005, and 2006 was 493.




                                       36
      Of the 23 SLIP candidates deselected in 2005, 21 ranked in the
lower half of their respective law school classes; another candidate was
unranked but listed a C grade average; and the one remaining
candidate ranked in the top 20 percent of his law school class at a law
school ranked between 40 and 50 with a grade average of 3.48 out of
4.0. This candidate had only neutral affiliations on his application. We
did not find the deselection of this 1 candidate out of 23 significant
enough to represent a trend of academically qualified candidates being
deselected by the Screening Committee.

       As was the case in 2003 and 2004, we concluded that the
deselection of these candidates could reasonably be explained by a
combination of low class rank, low grades, and attendance at a lower-
tier law school.

            4.    Conclusions on the 2003 to 2005 Honors Program
                  and SLIP Hiring Process

      We did not find evidence indicating that the Screening
Committees from 2003 to 2005 used political or ideological affiliations
as a basis either to accept or deselect candidates. First, there is no
indication from the documents, e-mails, or witness interviews that the
Screening Committee members used ideological or political affiliations
to evaluate candidates. Second, the Screening Committee deselected a
small percentage of candidates each year, which supports the
statement by Zabel that Screening Committee members were reluctant
to deselect candidates and only did so if the candidates did not have
strong academic credentials. Third, our review of the credentials of the
deselected candidates supports the conclusion that the deselection
decisions could reasonably be explained on the basis of a combination
of low class rank, low grades, and attendance at lower-tier law schools.

      D.    The 2006 Screening Committee

       In contrast to the Screening Committees in 2003 to 2005, the
Screening Committee in 2006 deselected many Honors Program and
SLIP candidates. These deselections, made without explanation to the
components, generated significant controversy within the Department.
We therefore discuss the 2006 process in detail. As we describe below,
based on the results of our investigation we concluded that two of the
three members of the Screening Committee inappropriately considered
political and ideological affiliations in the deselection process.

            1.    The Screening Committee’s Decisions

      In 2006, the Screening Committee was chaired by Michael Elston,
the Deputy Attorney General’s Chief of Staff. The other two members


                                   37
were Daniel Fridman, an Assistant U.S. Attorney (AUSA) from the
Southern District of Florida on detail to the Deputy Attorney General’s
office, and Esther Slater McDonald, a Counsel to the Associate Attorney
General. Elston and McDonald were political appointees, and Fridman
was a career prosecutor.

                      a.     Honors Program Deselections

       On September 29, 2006, 11 components and 1 U.S. Attorney’s
Office forwarded 602 Honors Program candidates to the Screening
Committee for review. 28 According to the schedule established by
OARM, the Screening Committee was supposed to provide its list of
deselected candidates to OARM by October 3 so that interviews could
begin on October 23. According to OARM, adherence to this tight
timetable was important to ensure that the Department would not lose
the best candidates to other employers. However, the Committee did
not meet OARM’s deadline and did not provide a final list of deselected
candidates until October 11.

      The Screening Committee deselected 186 out of the 602 Honors
Program candidates (31 percent). The components were allowed to
appeal the Screening Committee’s decisions via e-mail to Elston no later
than the following day, October 12. The components appealed 32 of the
deselections, and 16 were granted.

                             (1)    The Components’ Reaction to the
                                    Screening Committee’s Deselections

       As shown in Chart 14, the number of deselected candidates in
2006 was much higher than in most previous years (with the exception
of 2002, when a large number of candidates had to be deselected due to
budgetary constraints). In 2006, 186 candidates – almost one-third of
all Honors Program applicants selected by the components for
interviews – were deselected by the Screening Committee. Screening
Committees in each of the previous 3 years had deselected no more
than 46 candidates, or 7 percent.




       28  The 11 components were the Antitrust Division, the Civil Division,
the Civil Rights Division, the Criminal Division, the Environmental and Natural
Resources Division, the Tax Division, the Bureau of Alcohol, Tobacco, Firearms
and Explosives, the Executive Office for Immigration Review, the Office of
Justice Programs, the Federal Bureau of Prisons, and the Professional
Responsibility Advisory Office.




                                         38
            Chart 14: Honors Program Deselection Rates
                        from 2002 to 2006

   1000   911
    900
    800
    700             635                         624        602
                                572
    600
                                                                   Total
    500
                                                                   Deselected
    400      307
    300                                                      186
    200
    100                               13              46
                          6
      0
           2002      2003       2004            2005       2006


      As in previous years, the 2006 Screening Committee provided to
OARM a list of deselected candidates without explanation. As noted
above, the list was unusually large and some components requested an
explanation as to why certain candidates had been deselected. Some
component officials said they sought an explanation to help them
decide whether to appeal the Committee’s decision or to simply
understand the basis for what appeared to be inexplicable decisions to
deselect candidates with high academic qualifications.

      Elston generally responded to these requests for explanations by
stating that the deselections were made by a committee. While he told
us he did not remember the basis for individual deselections, he
suggested to the components at the time that poor grades and poor
grammar were the reasons for most candidate deselections.

       Many component employees involved in the selection process told
us they were shocked and upset at the large number of candidates the
Screening Committee had deselected. They said the impressive
qualifications of many of the deselected candidates, together with no
explanation for their deselection, led to widespread speculation that the
Screening Committee considered political or ideological affiliations in
deselecting candidates.

                          (2)    2006 Honors Program Data Analysis

      We conducted extensive data analysis of the applications of those
Honors Program and SLIP candidates who had been approved or
deselected by the Screening Committee in 2006 to detect any patterns


                                           39
in the approval and deselection rates between candidates with differing
affiliations. We first examined the applications of all candidates
reviewed by the Screening Committee and compared the deselection
rates for candidates who had affiliations with liberal groups on their
applications with candidates who had affiliations with conservative
groups.

        Second, we analyzed the applications of deselected candidates
who met high academic standards to determine if there were any
differences in the deselection rates between highly qualified liberally
affiliated candidates and highly qualified conservatively affiliated
candidates.

      Third, we separately analyzed the applications for membership in
the American Constitution Society and the Federalist Society to
determine if there were any differences in the selection rates for
candidates who reported an affiliation with either of these groups.

      Finally, we examined the candidates’ applications to determine
whether the candidates listed work experience or membership with a
Republican or Democratic politician or organization. We grouped these
candidates as Republican Party affiliated or Democratic Party affiliated
and compared the deselection rates between these two groups.

      The results of our analyses for the Honors Program and SLIP
candidates reviewed by the 2006 Screening Committee are discussed in
the sections below.

       As noted, in 2006, 11 components and the U.S. Attorney’s Office
for the Southern District of California forwarded 602 candidates to the
Screening Committee for review. Of those, 416 candidates (69 percent)
were approved and 186 (31 percent) were initially deselected by the
Screening Committee. The components appealed 32 of the deselections
and 16 were reinstated. Chart 15 illustrates the 2006 Honors Program
candidate universe.




                                    40
              Chart 15: 2006 Honors Program Candidate Universe

   450
                 416 (69 percent)
   400

   350

   300

   250

   200                                     186 (31 percent)


   150

   100

    50
                                                                  16 (3 percent)
     0
                    Approved                 Deselected       Reinstated After Appeal




                                    i.   Ideological Affiliations

      Based on the results of our analysis of the applications, we found
that 150 (25 percent) of the candidates nominated by the components
had liberal affiliations, while 28 (5 percent) had conservative affiliations,
and 424 (70 percent) had neutral ideological affiliations.

     Chart 16 shows the approval and deselection rates for candidates
grouped by their affiliations. 29




          As noted above in footnote 18, we recognize that these determinations are
         29

not precise, and categorizing organizations in these ways is subjective. As also
discussed in Section III(G), according to Fridman and Elston, McDonald determined
whether candidates had liberal affiliations based in part upon information she found
when conducting Internet searches that was not reflected on the candidates’
applications. However, because we were unable to reconstruct what information
McDonald obtained from the Internet, our analysis of candidates’ affiliations is based
upon the information in their applications. Each time we present an analysis where
the candidates are categorized as having liberal or conservative affiliations, we have
also included in the appendix the groups that we relied upon in making these
determinations.




                                              41
     Chart 16: Affiliations of 2006 Honors Program Candidates

    350
                                                        326

    300


    250


    200
                                                                         Approved
                                                                         Deselected
    150

                                                                98
    100                  83
                 67

     50
                                     23
                                             5
      0
               Liberal (n=150)   Conservative (n=28)   Neutral (n=424)



       As the chart shows, candidates whose applications indicated
liberal affiliations were deselected at a higher rate (83 out of 150, or
55 percent) than candidates who had conservative affiliations (5 out of
28, or 18 percent) or neutral affiliations (98 out of 424, or 23 percent).

        We also examined a subset of deselected candidates who met
high academic standards to determine if there were any differences in
the deselection rates between highly qualified candidates with liberal
affiliations and highly qualified candidates with conservative affiliations.

       To identify a subset of highly qualified candidates, we relied on
criteria that one of the Screening Committee members, Daniel Fridman,
described as an indication that the candidates were so highly qualified
that they merited just a quick check before he approved them. Fridman
said that if candidates attended a top 20 law school, were in the top
20 percent of their respective classes, or were at a school that did not
rank students, he tended to approve them automatically unless they
had a C on their transcripts. 30 We refer to these criteria as the
“Fridman criteria.” These criteria are consistent with Elston’s
statements to component officials that he was looking for candidates

           Fridman said that he also frequently approved candidates with lesser
          30

academic credentials than those described above, but that he would first look at the
essays or at other factors on those candidates’ applications before making a
determination.




                                             42
with good grades who attended good law schools. Thus, all candidates
meeting the Fridman criteria met academic standards that both
Fridman and Elston stated they were looking for.

      Therefore, we identified all Honors Program candidates
nominated by the components who either attended a top 20 law school,
were ranked in the top 20 percent of the class, or attended a law school
that did not rank candidates. We then eliminated from that group all
candidates who had a grade lower than a B on their transcripts.

     Chart 17 shows all candidates (both approved and deselected)
who met the Fridman criteria, and compares the deselection rates
between candidates of liberal, conservative, and neutral affiliations.

        Chart 17: Affiliations of Academically Highly Qualified
                  2006 Honors Program Candidates

  300


  250                                              240



  200


                                                                    Approved
  150
                                                                    Deselected


  100

            52
   50               35                                     35
                                16
                                        1
    0
           Liberal (n=87)   Conservative (n=17)   Neutral (n=275)



       Candidates who met the Fridman academic criteria but whose
applications indicated liberal affiliations were deselected at a much
higher rate (35 out of 87, or 40 percent) than candidates meeting the
criteria who had conservative affiliations (1 out of 17, or 6 percent) or
neutral affiliations (35 out of 275, or 13 percent).

       We also examined all approved and deselected Honors Program
candidate applications for membership in the American Constitution
Society and the Federalist Society to determine if there were any
differences in the selection rates for candidates who reported an



                                        43
affiliation with either of these groups. 31 Chart 18 describes these
results.

  Chart 18: 2006 Honors Program Candidate Membership in the
   American Constitution Society and the Federalist Society 32

       16
                                                  15

       14


       12

       10

                                                                        Approved
        8
                                                                        Deselected

        6
                     5
                                                            4
        4
                              2
        2

        0
            American Constitution Society   Federalist Society (n=19)
                       (n=7)



       We found that 5 of the 7 applicants whose applications indicated
that they were American Constitution Society members (71 percent)
were approved by the Screening Committee, while 15 of the 19
candidates (79 percent) who mentioned that they were members of the
Federalist Society were approved by the Screening Committee for
interviews. Thus, there was little difference in the selection rates for
Honors Program candidates based on their stated affiliation with the
American Constitution Society and the Federalist Society.




       31 The Federalist Society and the American Constitution Society are

described further in footnote 19.
       32  One deselected Honors Program candidate was a member of both the
Federalist Society and the American Constitution Society. That candidate was
not included in this analysis.




                                            44
                              ii.    Political Affiliations

      We next examined the applications where the candidates
indicated work experience with a politician, such as a Member of
Congress or a state legislator, or membership in a political organization.
We grouped these as candidates affiliated with the Democratic Party or
the Republican Party. 33 Chart 19 shows the approval and deselection
proportions for these subsets.

         Chart 19: Political Affiliations of 2006 Honors Program
                                Candidates
   400                                               376

   350


   300


   250

                                                                      Approved
   200
                                                                      Deselected
                                                             158
   150


   100


    50
              24     22             16
                                          6
    0
            Democrat (n=46)    Republican (n=22)    Neutral (n=534)



       Candidates who had Democratic Party affiliations were deselected
at a higher rate (22 out of 46, or 48 percent) than candidates who had
Republican Party affiliations (6 out of 22, or 27 percent) or did not show
any party affiliations (158 out of 534, or 30 percent).

      We also examined the 379 highly qualified candidates (both
approved and deselected) who met the Fridman criteria and determined
that 45 of those candidates indicated an affiliation with the Democratic




       33 In some cases, candidates worked for both Democrats and Republicans. We

considered these candidates to be neutral in affiliation.




                                          45
or Republican Party. Chart 20 shows the approval and deselection
proportions for these groups. 34

           Chart 20: Political Affiliations of Academically
          Highly Qualified 2006 Honors Program Candidates

    300
                                                     276


    250



    200


                                                                      Approved
    150
                                                                      Deselected


    100

                                                            59
     50
              19
                     11           13
                                          1
      0
            Democrat (n=30)    Republican (n=14)   Neutral (n=335)



       Candidates meeting the academic criteria who had Democratic
Party affiliations on their applications were deselected at a much higher
rate (11 out of 30, or 37 percent) than candidates meeting the criteria
who had Republican Party affiliations (1 out of 14, or 7 percent) or no
party affiliations (59 out of 335, or 18 percent).

                              iii. Summary of 2006 Honors Program
                                   Data Analysis

        Overall, based on the results of our data analysis, we found that
Honors Program candidates whose applications reflected liberal
affiliations were deselected at more than three times the rate
(55 percent) of candidates whose applications reflected conservative
affiliations (18 percent) and more than twice the rate of candidates
whose applications reflected neutral affiliations (23 percent). We found
a similar trend when we examined a subset of highly qualified
candidates. Highly qualified candidates meeting the Fridman academic
criteria whose applications reflected liberal affiliations were deselected

      34 One academically highly qualified candidate worked for both a Democratic

and Republican official. This candidate was counted as neutral in our analysis.




                                          46
at a substantially higher rate (40 percent) than highly qualified
candidates whose applications reflected conservative affiliations
(6 percent) or neutral affiliations (13 percent).

      In addition, candidates whose applications reflected a Democratic
Party affiliation were deselected at a significantly higher rate
(48 percent) than candidates whose applications reflected a Republican
Party affiliation (27 percent) or who did not show any party affiliations
(30 percent). Similarly, highly qualified candidates who had Democratic
Party affiliations were deselected at a much higher rate (37 percent)
than candidates who had Republican Party affiliations (7 percent) or
who did not show any party affiliation (18 percent).

                         (3)   Appeals of Deselected Honors Program
                               Candidates

      As noted above, 7 components appealed the deselection of 32
Honors Program candidates to Elston. Elston granted 16 of the
appeals, and those candidates were added to the list of interviewees.
Eleven additional appeals were withdrawn by the components before
Elston acted on them. In this section, we describe the experience
encountered by several components in appealing deselected Honors
Program candidates.

       For example, Carol Lam, U.S. Attorney for the Southern District
of California, appealed the deselection of a candidate and pointed out to
Elston in an e-mail on October 11 that the candidate had graduated
from Stanford Law School with distinction and had a Ninth Circuit
Court of Appeals clerkship. Lam told us she speculated that the
Committee may have deselected the candidate because the candidate
was clerking for a judge who was a Clinton appointee or because she
had written an article on gender discrimination in the military. In her
e-mail to Elston, Lam asked for an explanation for the deselection.

      Elston replied by e-mail that most deselections were for poor
grades. He acknowledged, however, that poor grades did not appear to
be the issue with this candidate, and he offered to check into the
application and let Lam know whether an appeal would be successful.
Elston replied later that day: “I have reviewed her application
materials, Carol. I do not think an appeal will be successful. If it helps,
she was not selected by the other components to which she applied.”
Lam responded: “Thanks Mike. Just curious, though – I don’t see
anything unacceptable in her online application that was made
available to us. Do the other components see something that I don’t?”
Elston replied: “Not that I know of, Carol.”




                                    47
       The Civil Division also attempted to obtain from Elston the
rationale for the deselection of certain candidates with strong academic
records before it submitted any appeals. Elston responded to the Civil
Division that the “vast majority were cut for poor grades. I cannot
speak to the individual applicants you named at this point.” However,
when the Civil Division pointed out the excellent academic credentials
of a deselected candidate who was sixth in his law school class and was
currently clerking for a federal judge, Elston responded: “There was a
committee (which was not made up of exclusively ODAG staffers) . . . so
I am not in a good position to give you reasons others may have had for
their decision.” This candidate had been an intern with the Public
Defender Service and had written a paper on the detention of aliens
under the Patriot Act. After this exchange, the Civil Division appealed
the deselection of this candidate, along with other candidates. Elston
denied the appeal of this candidate without explanation.

       Civil Division Principal Deputy Assistant Attorney General
(PDAAG) Jeffrey Bucholtz told us that in the absence of any explanation
for the deselection of seemingly qualified candidates, employees in the
Division speculated that politics was a factor in the Committee’s
deselection decisions.

      Peter Keisler, the Assistant Attorney General for the Civil
Division, called Elston after learning that he had denied the appeals of
several highly qualified candidates. Keisler said he told Elston
something to the effect of:

      [Y]ou should know that there’s a lot of people who believe
      that these deselections are either irrational or so irrational
      that they are motivated by politics, and that’s a problem,
      you know. Whatever the truth of it is, when this many
      people in a Department are this unhappy about something,
      it’s going to be an issue.

      Keisler gave as an example an appeal of a deselected candidate
who had good grades at Harvard Law School, had been a successful
summer intern at the Civil Division, and had worked as a paralegal for
Planned Parenthood. Elston denied the appeal. Keisler told Elston that
“some people had said that the only reason she might have been
deselected is that she had on her résumé something like Planned
Parenthood or something that would be associated with the abortion
issue.” According to Keisler, Elston said something like, “well that’s not
what’s going on. What we’re doing here is rejecting people because of




                                   48
academic performance being not up to standards.” 35 Following his
conversation with Keisler, however, Elston allowed this candidate to be
interviewed.

       In the Tax Division, following the deselection of eight of its Honors
Program candidates, senior Tax Division career employees analyzed the
eight deselected candidates and determined that each had attended a
top law school or was in the top third of his or her class, and that three
of the deselected candidates had some indication on their applications
of a liberal political or ideological affiliation. Several Tax Division
employees opined in a memorandum to AAG Eileen J. O’Connor that
the deselection of these seemingly otherwise qualified candidates
presented at least the appearance of discrimination on the basis of
political or ideological affiliation.

       For example, according to the memorandum, one candidate, a
Georgetown University law student with good grades, had previously
worked for Senator Christopher Dodd and Representative Patrick
Kennedy, both Democrats. Another deselected candidate was the one
(described above) about whom Keisler had talked to Elston. As a result
of an Internet search Tax Division attorneys conducted, they discovered
that this candidate, while an undergraduate, had written for a student
newspaper an opinion piece critical of a Bush administration proposal
and, while a Harvard Law student, had spoken out against the
nomination of Samuel Alito to the Supreme Court. A third deselected
candidate, who was in the top 25 percent of her law school class at
Boston University, had worked for a variety of legal service groups
aimed at assisting indigents and convicts, as well as for a human rights
center. 36

       In the Executive Office for Immigration Review, upon learning
that a significant number of EOIR’s Honors Program candidates had
been deselected, Deputy Director Kevin Ohlson reviewed the deselected
candidates’ applications as well as a few applications of candidates who
were approved for interviews. Ohlson told us that it appeared that
“individuals at the Department were rejecting any of our candidates
who could be construed as . . . left-wing” or who were “perceived, based


       35 Elston told us that he did not recall Keisler discussing with him a candidate

who had worked for Planned Parenthood, but said it may have been part of a
conversation he had with Keisler about the Honors Program and SLIP review process.
       36No one from the Tax Division questioned Elston about the issues raised in
this memorandum. We asked Elston about the deselected candidates discussed in
this memorandum, and he said he had no recollection of the recommendations he
made regarding these candidates.




                                          49
on their applications and résumés and so forth, as being more liberal.”
Ohlson said that he reached this conclusion based on the fact that
many of the deselected candidates had had internships with
organizations such as Human Rights Watch or the American Civil
Liberties Union (ACLU), or had assisted in defending someone held at
Guantánamo Bay. 37

                      b.     SLIP Deselections

      The Screening Committee’s deselection of SLIP candidates in
2006 created more concern among the components about the basis for
the deselection decisions because a higher number of candidates who
appeared to be highly qualified were deselected.

       Under OARM’s original timeline, the Screening Committee was
required to submit the names of deselected SLIP candidates to OARM
by October 10, with appeals to be decided by October 12. However, the
Committee did not begin sending lists of SLIP candidates who were
cleared for interviews or deselected until October 31. The Committee
continued to send lists to OARM on a rolling basis throughout
November, with the last list being sent on November 28, the Tuesday
before Thanksgiving. Under a national agreement in place at the time,
law firms, judges, and other employers had agreed to hold open offers of
employment to law students until December 1. 38

      The components submitted 451 SLIP candidates to the Screening
Committee. The Screening Committee approved 249 (55 percent) and
deselected 202 (45 percent). This large number of deselections was
much greater than in the 3 previous years, when the number of SLIP
candidates deselected by the Screening Committee each year ranged
between 10 and 23. The only other year in which the deselection rate
was anywhere near that of 2006 was 2002, when the Screening
Committee deselected 185 out of 498 (37 percent).




        37 Another EOIR employee told us that after half of EOIR’s candidates were

deselected, EOIR employees believed that political considerations played some role in
the deselections.
       38  However, law students often accept offers before the December 1 deadline.
As the Screening Committee fell behind in screening SLIP candidates, OARM reminded
Elston that the Department would lose well-qualified candidates who accepted offers
from law firms or other employers.




                                         50
                            (1)    The Components’ Reaction to the
                                   Screening Committee’s Deselections

      According to several witnesses, the components were concerned
about the substantial delay in the Screening Committee’s review of SLIP
candidates, the absence of any explanation for the deselections, and the
appearance that political or ideological affiliations may have been taken
into account in evaluating candidates.

      Rather than being in a position to conduct SLIP interviews and
extend offers in late October as OARM originally envisioned, many
components could not begin the interview process until late November,
when they finally received their lists of approved candidates.
Component officials reported to OARM that as the national December 1
deadline for law students to accept offers drew near, more and more
students who were contacted for interviews or to whom offers were
extended responded that they had already accepted an offer from
another employer. 39

      In addition to the delay, the components were concerned and
surprised about the large number and high quality of deselected
candidates. Because these law students would only work at the
Department for a few weeks in the summer, component officials told us
they did not expect that the SLIP candidates would receive such
stringent scrutiny or that almost half of the candidates chosen by the
components would be deselected.

      Like the Honors Program, several component hiring officials said
that the large number of apparently high quality SLIP candidates who
were deselected led them, in the absence of any explanation from the
Screening Committee, to suspect that political or ideological affiliations
played a role. As a result, several component officials conducted their
own analysis to see if they could determine any patterns or trends in
the deselections.

      For example, in trying to determine why 49 of the 53 SLIP
candidates the Antitrust Division had chosen were deselected, Antitrust
       39  Component officials said the rolling nature of the Screening Committee’s
review also made it difficult for them to decide to whom they should extend offers,
since they did not know whether or when additional candidates, who were sometimes
higher on their list, would be approved for interviews. Out of necessity, the
components began extending offers during early November to cleared candidates
without waiting for the completion of the Screening Committee’s review. Because
most components tried to make offers as soon as possible to whichever candidates
were cleared by the Committee, few appeals of deselected SLIP candidates were
submitted to Elston.




                                        51
personnel conducted Internet searches on some of the candidates.
They discovered that one, a Harvard Law School student with good
grades who had graduated summa cum laude in economics from New
York University, had worked for Senator Hillary Clinton, while another
candidate had a MySpace page on which someone had posted an
unflattering cartoon about President Bush and Vice President Cheney.
These results, along with the absence of any explanation from the
Screening Committee for the large number of deselections, led to
speculation in the Antitrust Division that the Committee had
considered political affiliations.

       Similarly, following deselection of 28 of 74 of the Tax Division’s
SLIP candidates, a senior Tax Division attorney reviewed all the
candidates’ applications and wrote in a memorandum analyzing the
deselections that she was “unable to identify any legitimate reason the
students were deselected.” The attorney concluded that all but one
candidate who had worked for a Democrat were deselected, while all
candidates who listed connections to Republican Members of Congress
or the White House were approved. The attorney noted, for example,
that in one case,

      a student who was in the top 5% of his class at Cleveland
      State Law School and who had worked for Congressman
      Kucinich was deselected, but the Division was permitted to
      interview another Cleveland State student who was only in
      the top 20% of the class but whose application did not
      identify any particular political experience or leanings.

      A senior attorney in the Civil Division’s Appellate Branch
conducted an analysis of the 59 candidates that were deselected out of
the 135 candidates that were submitted by the various sections in the
Division. The senior attorney wrote that, as the approval and
deselections of SLIP candidates trickled out in the fall of 2006,

      a pattern emerged that became impossible to ignore:
      candidates who had worked for [Democrats] were uniformly
      rejected, notwithstanding some with outstanding
      qualifications. In fact, 12 of the 13 candidates on the Civil
      Division’s list who had worked for a democratic senator or
      representative were rejected. . . . In addition, 4 out of 5
      candidates who had worked for democratic state legislators
      were rejected.

The attorney wrote that “every candidate who had worked for GOP
legislators at the state or federal level had been approved.”




                                   52
        A senior attorney in the Civil Division’s Federal Programs Branch
likewise conducted an analysis of the 13 candidates out of the 40
nominated by that office who had been deselected. Among them, six
were attending Harvard Law School and had either an A or B+ grade
average, and two were attending Yale Law School and had previously
worked as summer interns for the Criminal Division’s Counterterrorism
Section. The remaining five deselected students were attending
Georgetown, Columbia, Stanford, George Washington, and the
University of Pennsylvania law schools, and all had good grades. The
senior attorney noted that several of these candidates listed liberal
affiliations on their applications. The attorney opined that “what the
Deputy [Attorney General]’s office has done with the SLIP program is
nothing short of outrageous.”

                        (2)    2006 SLIP Data Analysis

      We conducted an analysis of the SLIP data regarding candidates
who were approved or deselected by the 2006 ODAG Screening
Committee similar to the data analysis we conducted on the Honors
Program candidates discussed in Section III(D)(1). We compared
deselection rates between candidates with liberal, conservative, and
neutral affiliations, and between candidates with Democratic or
Republican Party affiliations. The results of that analysis are discussed
below.

      In 2006, the components forwarded to the Screening Committee
451 SLIP candidates, of whom 249 (55 percent) were approved and 202
(45 percent) were deselected. Eighteen of the 202 deselections were
appealed and 13 were granted. Chart 21 illustrates the 2006 SLIP
candidate universe.




                                   53
              Chart 21: 2006 SLIP Candidate Universe

      300
              249 (55 percent)
      250
                                           202 (45 percent)
      200

      150

      100

       50
                                                                          13 (3 percent)
        0
                 Approved                    Deselected              Appeal Reinstated



                                 i.     Ideological Affiliations

       Based on the results of our analysis of the 451 SLIP candidates
forwarded to the Screening Committee, we found that 68 (15 percent)
listed work experience or activities with a liberal group, 16 (4 percent)
listed work experience or activities with a conservative group, and 367
(81 percent) had neutral affiliations listed on their applications.

      Chart 22 illustrates these affiliations and shows the approval and
deselection rates for candidates grouped by their affiliations.

            Chart 22: Affiliations of 2006 SLIP Candidates

      250
                                                              223

      200


                                                                    144
      150
                                                                                   Approved
                                                                                   Deselected
      100

                     56
       50
                                      14
               12                             2
        0
             Liberal (n=68)       Conservative (n=16)     Neutral (n=367)




                                              54
        We found SLIP candidates whose applications reflected liberal
affiliations were deselected at a much higher rate (82 percent) than SLIP
candidates who had conservative affiliations (13 percent) or neutral
affiliations (39 percent).

       We then examined deselected candidates who met high academic
standards to determine if there were any differences in the deselection
rates between highly qualified candidates whose applications reflected
liberal affiliations and highly qualified candidates whose applications
reflected conservative affiliations. 40

       Chart 23 shows the approval and deselection rates for the highly
qualified candidates who met the Fridman criteria.

        Chart 23: Affiliations of Academically Highly Qualified
                         2006 SLIP Candidates

     180
                                                         154
     160
     140
     120
     100                                                                     Approved
                                                                77
      80                                                                     Deselected
      60
      40
                      25
      20
                 6                    5     1
       0
              Liberal (n=31)    Conservative (n=6)     Neutral (n=231)



        Highly qualified SLIP candidates meeting the Fridman criteria
whose applications reflected liberal affiliations were deselected at a rate
significantly higher (25 out of 31, or 81 percent) than SLIP candidates
meeting the Fridman criteria whose applications reflected conservative
affiliations (1 out of 6, or 17 percent) or neutral affiliations (77 out of
231, or 33 percent).

       We also examined membership in the American Constitution
Society and the Federalist Society to determine whether there were any
differences in the deselection rates for candidates who reported an

        40 As described in Section III(D)(1)(a), to identify highly qualified candidates,

we relied on the Fridman criteria in this analysis.




                                            55
affiliation with either of these groups. Chart 24 illustrates these
results.

       Chart 24: 2006 SLIP Candidate Membership in the
     American Constitution Society and the Federalist Society

      10
                                              9
       9
       8
       7
       6
                         5                                        Approved
       5
                                                                  Deselected
       4
       3
       2
                  1                                  1
       1
       0
            American Constitution     Federalist Society (n=10)
               Society (n=6)



      We found that 5 of the 6 applicants (83 percent) whose
applications reflected membership in the American Constitution Society
were deselected by the Screening Committee, while 1 of the 10
applicants (10 percent) whose application reflected membership in the
Federalist Society was deselected.

                             ii.    Political Affiliations

     We next examined SLIP applicants whose applications reflected
working for a politician or political organization. Chart 25 shows the
approval and deselection rates for these subsets.




                                        56
      Chart 25: Political Affiliations of 2006 SLIP Candidates

    250                                           228

    200
                                                        170

    150
                                                                  Approved
                                                                  Deselected
    100


     50
              12   23            9    9
      0
          Democrat (n=35)   Republican (n=18)   Neutral (n=398)



       Candidates who had a Democratic Party affiliation were
deselected at a slightly higher rate (66 percent, or 23 out of 35) than
candidates who had a Republican Party affiliation (50 percent, or 9 out
of 18) or candidates with neutral affiliations (43 percent, or 170 out
of 398).

       Similarly, as demonstrated by Chart 26, we found that the highly
qualified candidates meeting the Fridman criteria whose applications
reflected Democratic Party affiliations were deselected at a slightly
higher rate (60 percent, or 15 out of 25) than the highly qualified
candidates whose applications reflected Republican Party affiliations
(50 percent, or 6 out of 12) or neutral affiliations (35 percent, or 82 out
of 231).




                                       57
             Chart 26: Political Affiliations of Academically
                Highly Qualified 2006 SLIP Candidates

       160
                                                   149
       140
       120
       100
                                                         82        Approved
        80
                                                                   Deselected
        60
        40
                     15
        20
                10                6    6
         0
             Democrat (n=25) Republican (n=12)   Neutral (n=231)



                             iii. Summary of 2006 SLIP Data Analysis

       Overall, we found that SLIP candidates whose applications
reflected liberal affiliations were deselected at a substantially higher
rate (82 percent) than SLIP candidates whose applications reflected
conservative affiliations (13 percent) or neutral affiliations (39 percent).
We also found that in the subset of highly qualified SLIP candidates
who met the Fridman criteria, candidates whose applications reflected
liberal affiliations were deselected at a higher rate (25 out of 31, or
81 percent) than candidates with conservative affiliations (1 out of 6, or
17 percent) or neutral affiliations (77 out of 231, or 33 percent). We
found that 83 percent (5 out of 6) of candidates whose applications
reflected membership the American Constitution Society were
deselected, while 10 percent (1 out of 10) whose applications reflected
membership in the Federalist Society were deselected. In addition,
candidates whose applications reflected Democratic Party affiliations
were deselected at a slightly higher rate than candidates with
Republican Party affiliations.

                            (3)    Appeals of Deselected SLIP Candidates

      Given the substantial delay in the Screening Committee’s review
of SLIP candidates, few appeals were made. Instead, components
primarily focused on trying to fill their SLIP positions with whichever
cleared candidates were available to them.

      However, four components appealed the deselection of 18 SLIP
candidates, and 13 were granted. For example, on November 22, when


                                        58
38 of the Civil Division’s SLIP candidates still had not been ruled on by
the Screening Committee, AAG Keisler appealed 3 candidates who had
been deselected and requested that Elston approve 10 of the remaining
candidates about whom the Committee had not yet decided. Keisler
said he thought all 13 candidates were academically qualified and
should be approved. The 3 appeals of the deselected candidates,
including an appeal of a candidate who was a Yale Law School student
and a Rhodes Scholar, were denied, and the Screening Committee
approved only 6 of the 10 candidates for whom Keisler requested
clearance. At the time, Elston gave no explanation for the decisions.

       The Civil Rights Division had 24 of its 52 candidates deselected,
and appealed 1. That candidate was a student at Harvard Law School
with an A- grade average, had interned at the U.S. Attorney’s Office in
the Eastern District of California, and was strongly recommended by an
attorney in the front office of the Civil Rights Division who knew him.
Rena Comisac, Principal Deputy Assistant Attorney General for the Civil
Rights Division, told us that after the appeal was submitted, Elston
informed her that the Screening Committee had found an article on the
Internet in which the candidate was quoted as expressing regret that he
had not participated in the 1999 World Trade Organization (WTO)
protests in Seattle. According to Comisac, Elston said that if the
candidate wanted to participate in the Seattle WTO protests, which in
Elston’s opinion were close to a riot, then the candidate would not
hesitate to chain himself to the front steps of the Department if he did
not like the way something was being done. Comisac told us that it was
clear to her that “any additional appeals would not be productive” and
that she decided not to pursue the matter further.

            2.    Concerns About the Screening Committee Process
                  Raised with the OARM Director

      OARM Director DeFalaise told us that during the 2006
deselection process the components were “expressing a lot of
unhappiness” about the Screening Committee’s deselections. He also
said that a few employees raised to him an “implication” that the
candidates were “being deselected in these numbers because of political
considerations.”

      In addition, an OARM employee told us that at least twice she
went to DeFalaise and asked him to confirm that the lists OARM had
received from the 2006 Screening Committee were in fact deselected
candidates because a large number of the deselected candidates
appeared to be highly qualified. She recalled that one of the candidates
she raised to DeFalaise’s attention was first in his law school class at
Georgetown University, had clerked for a federal district court judge,


                                   59
and was currently clerking for a Second Circuit judge. 41 DeFalaise told
us that he confirmed with Elston’s administrative assistant, but not
with Elston, that these candidates were supposed to be deselected.

       DeFalaise said that after the selection process was completed he
may have mentioned to Elston that there was some concern among the
components that the process had been politicized, but he never asked
Elston directly if Elston had considered political affiliations in
evaluating candidates. DeFalaise added that while he never had a
“direct discussion” with Elston on this question, Elston “was already
saying no” by saying that he was looking at academics, writing skills,
and information obtained from the Internet.

       DeFalaise also said he did not have discussions about this issue
with anyone else in the Department’s leadership offices until April
2007, after allegations that the process had been politicized became
public. DeFalaise stated that because these were senior Department
officials who were involved in the screening, until he had “reason to
think that there’s been a violation of personnel practices,” he took it “on
good faith” that the deselections were made “for the right reasons, and
for the reasons stated.”

              3.      Concerns About the Screening Committee Process
                      Raised with Elston

       Our investigation found that both during and after the Screening
Committee’s review of Honors Program and SLIP candidates in 2006,
various component officials had raised concerns with Elston about the
delay and the qualifications of those being deselected, and at least one
official questioned whether the Screening Committee had considered
political or ideological affiliations in deselecting candidates. For
example, as discussed in Section III(D)(1), AAG Keisler told Elston that
the deselection of a highly qualified Harvard Law School student who
had worked for Planned Parenthood could be perceived as politically
motivated.

      Tax Division AAG O’Connor told us that she called Elston to
express concern about the delay in the SLIP review process and inquire
about its cause. O’Connor said Elston stated to her that the
components had done a “horrible” job of screening candidates and that
he also mentioned finding inappropriate information on the Internet
       41 This candidate also had worked as a law clerk for Senator Russell Feingold,
a Democrat, and for Human Rights Watch, but the OARM employee does not recall
pointing out the candidate’s political or ideological affiliations to DeFalaise at this
time.




                                          60
about candidates components wanted to interview. Elston told us that
he did not recall any conversation with O’Connor about the Honors
Program and SLIP hiring process.

      We found that in a November 30 e-mail to OARM Director
DeFalaise, Elston suggested convening a meeting with representatives
from each component that participated in the Honors Program and SLIP
process “to get input from the components on how, collectively, we can
do a better job, and . . . to give them some ideas on how to screen the
candidates (checking the web, etc.).” Elston stated in the e-mail that he
was particularly unhappy that there were “far too many applicants
whose grades did not meet an objectively reasonable definition of an
‘honors’ student” and that there were many applications that “exhibited
stunningly poor grammar and/or spelling.”

       The meeting was held on December 5, 2006. Representatives
from each of the 11 components that participated in the Honors
Program and SLIP attended. According to several attendees, Elston
opened the meeting on a conciliatory note, apologizing for the delay in
screening candidates that year, particularly the SLIP candidates. He
then stated that the process had been hindered by the components’
failure to adequately screen candidates, and he repeated this assertion
throughout the meeting.

      According to several attendees, Elston stated that candidates
were deselected for one of three reasons: (1) poor grades or class rank;
(2) poor writing or grammar, as evidenced by their Avue online
applications; and (3) information on the Internet, such as that
uncovered through Google searches or on MySpace pages, indicating
the candidates were unsuitable for employment with the Department.
Elston gave two examples of the type of inappropriate information that
the Screening Committee had discovered on the Internet. He said one
candidate described himself on a MySpace page as an anarchist;
another had disseminated “compromising photos.”

      When an attorney suggested that the Avue system used for
submitting applications online may have been the cause of some of the
poor grammar or writing, Elston disagreed. 42 He said the problems that
the Screening Committee observed involved fundamentally poor
sentence structure, punctuation, and routine grammatical flaws.

       42   Several witnesses told us they found the Avue computerized application
system was difficult to operate and could result in typographical or grammatical
errors in an application that were not the fault of the applicant. The OIG’s own
experience in reviewing Avue applications for OIG employment vacancies confirmed
this point.




                                         61
       According to the attendees we interviewed, no one at the meeting
directly asked whether the Screening Committee had considered politics
or ideology in screening candidates. Yet, most told us they did not
believe that the meeting had satisfactorily answered their questions and
concerns about this issue.

      Several attendees told us that while Elston started the meeting
with an apology about the delays caused by the Screening Committee’s
review, his tone quickly became condescending, rude, unprofessional,
and hostile when attendees began asking questions about how the
Committee made its decisions. Several attendees also said that they
did not feel it would be productive to raise more questions due to the
confrontational tone that Elston took in response to the questions that
were asked. During our interview of Elston, he denied being rude or
unprofessional at the meeting.

      The attendees said that Elston seemed receptive to some
suggestions for change, such as having the Screening Committee only
review SLIP candidates if a component wanted to make an offer of
permanent employment to the candidate at the end of his or her
internship. Elston concluded the meeting by asking attendees to
submit their suggestions for improving the hiring process to DeFalaise.

      A senior Tax Division attorney told us that the question he really
wanted answered at the meeting was whether political considerations
played a role in the deselections, but no one asked Elston. The senior
attorney said he did not think it was a good idea to ask Elston this
question in front of everyone. After the meeting, however, the senior
attorney went to Elston’s office and told him that he and others were
concerned that politics had played a role in the deselections. The
senior attorney said Elston assured him “that wasn’t the case at all.” 43

        The senior attorney said that Elston’s denial did not alleviate his
concerns. Therefore, he, along with other senior career Tax Division
attorneys, drafted the memorandum to Tax Division AAG O’Connor,
discussed above in Section III(D)(1), which analyzed the Division’s
deselected candidates and concluded that political or ideological
affiliations may have played a role into the decision to deselect
candidates.



       43   Elston told us he did not recall a senior Tax Division attorney coming to his
office after the meeting and asking whether political affiliation had been considered in
evaluating candidates. Elston said he recalled only that an attorney from the front
office of the Tax Division had complained about the delay in reviewing applications.




                                           62
      O’Connor told us that upon receiving the memorandum her
reaction was that “the appearance that this created is so harmful, so
harmful. I’m – I’m just devastated by the impact and if there were
reasons other than the ones that [the memorandum] has laid out here,
they’ve not been made clear to me . . . .”

            4.    Concerns About the Screening Committee Process
                  Raised with the Acting Associate Attorney
                  General

       We also determined that concerns about the hiring process were
raised with Acting Associate Attorney General William Mercer. Tax
Division AAG O’Connor said that after receiving the memorandum from
her employees, she raised with Mercer the concerns that political
considerations may have been used by the Screening Committee. She
said she told Mercer that “the career people were firmly convinced
that . . . political considerations” had been used by the Screening
Committee in deselecting candidates. O’Connor also told Mercer that
ODAG “needed to communicate whatever the factors were, lessons
learned, after-action report, whatever it is, because nobody wants to be
in this position ever again.” O’Connor said Mercer appeared to share
her concern, although she did not know what Mercer did in response.

       We also found that near the end of the 2006 Honors Program and
SLIP hiring process, Civil Division AAG Keisler spoke with Mercer and
advised him that the review process had been problematic and that
many people in the Civil Division believed it had been politicized.
Keisler told Mercer that, whether or not political affiliations had been
considered, the process had gone badly for the Civil Division because it
was unable to hire many of the candidates it had selected and should
have been allowed to hire. Keisler said he did not want or expect
Mercer to take any action at that time. Rather, he wanted Mercer to be
aware of the problems the Civil Division had encountered, as well as the
general discontent in the Department about how the Honors Program
and SLIP hiring process had been handled. However, Keisler told
Mercer that, at the appropriate time, he would like to have a meeting of
senior Department officials to discuss the next year’s hiring process to
ensure that the problems they encountered in 2006 would not be
repeated. Keisler said that Mercer appeared to be unaware of much of
this information but that he seemed to be paying close attention.

       In addition, then Principal Deputy Associate Attorney General
Gregory Katsas told us that a senior career employee had expressed
concerns to him about Honors Program and SLIP candidates with
excellent credentials who had been deselected for no apparent reason
and that he and his colleagues had received a report from a law school


                                   63
official that there was a perception of “partisanship and unfairness.”
Katsas said Keisler also raised with him the concern that good
candidates were deselected “without apparent reasons.” Katsas said he
told Mercer what he had heard from Keisler and the senior career
attorney. Katsas said he also told Mercer that the concerns of Keisler
and the career attorney appeared to be “serious ones” and that Mercer
and he should be “on the lookout” about this issue going forward.

       Mercer told us during an interview that he recalled Keisler and
O’Connor each separately raising concerns that some excellent
candidates had been deselected by the Screening Committee without
explanation. He said that Keisler told him that people within the Civil
Division believed that very good candidates had been deselected “based
upon philosophical concerns.” O’Connor told him there was “great
frustration” within the Tax Division because the staff had worked hard
to come up with some excellent candidates but were not allowed to
interview them and they did not “understand the process.” Mercer said
he also learned from Katsas that a senior career attorney in the Civil
Division had expressed concerns that an Honors Program candidate
with excellent credentials had been deselected for no apparent reason.

      Mercer said he reported to Elston his conversations with Keisler
and O’Connor. According to Mercer, Elston stated that the deselections
were made because of “sloppiness of applications” or “poor academics.”
Elston also told Mercer that he had already scheduled the December 5
meeting to gauge what people’s concerns were. Elston said he intended
to explain the process the Committee had followed so the components
would have “a clear understanding of what we did, and what we
learned, and what the basis for the strikes were.”

      Mercer told us that he later learned from Associate Deputy
Attorney General David Margolis, a senior career Department official,
that the December 5 meeting had not gone well and that a lot of people
had left the meeting “disturbed” and “not satisfied.”

     Elston told us he did not recall any conversations with Mercer in
which Mercer reported that he had received complaints that candidates
had been evaluated on the basis of political or ideological affiliations.

       Mercer said he also had a conversation with Esther Slater
McDonald, who worked for him as Counsel in the Associate Attorney
General’s office and who he assigned to be a member of the 2006
Screening Committee. He said he asked her about the criteria the
Committee had used to evaluate candidates. Mercer said McDonald
told him the deselections were due to concerns about academic records,
sloppiness of applications, and, at times, “a concern that [the


                                   64
applicants] wouldn’t be able to follow DOJ policy based upon what they
had written.”

      Mercer said he never questioned Elston or McDonald further on
how the decisions were made because “[t]hat was something that I
thought the Committee was responsible for.” Mercer said he
understood that Elston was in charge of changing the process for hiring
Honors Program and SLIP candidates, and Mercer had no further
involvement in that process.

       E.     Initial Proposed Changes to the Honors Program and
              SLIP Hiring Process

      Following the December 5 meeting with Elston, OARM collected
and compiled suggestions from the components on ways to improve the
Honors Program and SLIP hiring process. Elston told us that given the
time and effort the Screening Committee had expended on the 2006
process, he considered recommending that Department-level review be
eliminated altogether. Elston said he discussed this suggestion with
Monica Goodling, Senior Counsel to the Attorney General, sometime in
January 2007, but she disagreed. Elston said Goodling stated that
Attorney General Ashcroft had initiated the Department-level review
because it was important that the Attorney General have input into his
Honors Program. Elston said it was clear to him from Goodling’s
comments that eliminating Department-level review was not an
option. 44

       In consultation with Elston and the components, OARM drafted
memoranda proposing changes to the Honors Program and SLIP hiring
process. In particular, the memoranda proposed eliminating the
Department-level Screening Committee review for all SLIP candidates,
except those who received an offer of permanent employment at the end
of the summer internship. However, Department-level review would
remain for all Honors Program candidates, and components would be
informed of the basis for individual deselections to assist them in
deciding whether to appeal. Other suggested changes to the process
included providing guidance to the components to assist them in
selecting highly qualified candidates during their initial candidate
selection, allowing components to submit component-specific criteria to
sort candidates on the Avue system, and increasing the size of the
Department-level Screening Committee to enable quicker review of
candidate applications.

        44 Goodling declined to be interviewed by us in connection with our

investigations of hiring practices in the Department.




                                         65
     OARM drafted decision memoranda to implement these proposed
changes, which were submitted in March 2007 to Deputy Attorney
General Paul McNulty for his review and approval. According to Elston,
McNulty approved the changes in early April 2007.

       On April 9, an anonymous letter was sent to the Chairmen of the
House and Senate Judiciary Committees alleging that the Honors
Program and SLIP had been politicized. The letter, signed by “A Group
of Concerned Department of Justice Employees,” complained about the
unusually large number of deselected candidates. The letter detailed
the December 5 meeting with Elston, alleged that Elston was “offensive
to the point of insulting,” and failed to give meeting attendees
satisfactory answers to their questions. The letter stated:

       When division personnel staff later compared the remaining
       interviewees with the candidates struck from the list, one
       common denominator appeared repeatedly: most of those
       struck from the list had interned for a Hill Democrat,
       clerked for a Democratic judge, worked for a “liberal” cause
       or otherwise appeared to have “liberal” leanings. Summa
       cum laude graduates of both Yale and Harvard were
       rejected for interviews.

       In mid-April 2007, several newspapers published articles about
the letter. 45

       F.      Additional Revisions to the Honors Program and SLIP
               Hiring Process

      The allegations in the April 9 letter were made in the midst of
congressional hearings into the firings of U.S. Attorneys and allegations
that hiring and personnel decisions at the Department of Justice had
been politicized.

      McNulty told us that prior to learning of the April 9 letter, he was
not aware of Elston’s role in the Honors Program and SLIP hiring
process and that he had no role himself in the process. McNulty said
that upon reading the April 9 letter, he discussed its allegations with
Elston. McNulty said Elston did not confirm or deny the allegation that
applicants were deselected for political reasons. Rather, Elston said he
did not know “why individuals were being scratched from the list.”
McNulty said Elston led him to believe that Elston was not one of the

       45 See, e.g., Evan Perez, Letter Accuses Justice Officials of “Politicization,” The
Wall Street Journal, Apr. 18, 2007; Dan Eggen, Gonzales to Admit Mistakes in Firings,
The Washington Post, Apr. 19, 2007.




                                           66
Committee members who reviewed the applications and instead acted
as “sort of a conduit for review” between the other two Committee
members (Fridman and McDonald) and OARM. McNulty said he
received the impression that Elston decided the appeals.

       McNulty said that after consulting with the Attorney General’s
office, it was quickly decided to refer the allegations in the April 9 letter
to OPR and the OIG for investigation. McNulty said that in light of the
referral, he did not question Elston further and he excluded Elston from
any further involvement with Honors Program or SLIP issues. 46

       Instead, McNulty said he worked directly with OARM Director
DeFalaise to revise the Honors Program and SLIP hiring process.
McNulty said he believed the changes Elston and DeFalaise had already
proposed, and which he had approved in early April, did much to
address the concerns that the hiring process could be politicized.
However, McNulty said that after discussions with DeFalaise, he
decided to create a different structure for conducting the Department-
level review.

      McNulty said that the “most crucial” reform he wanted to
implement was to ensure that the process would be controlled by career
employees. McNulty said DeFalaise helped him identify a different
structure in which OARM would run a quality review screening process
that would be conducted by career employees rather than by political
appointees.

       The final changes to the Honors Program and SLIP hiring process
were issued to Department components in an April 26, 2007,
memorandum from DeFalaise. Under the new process, the Screening
Committee, which formerly contained primarily political officials, was
replaced by an Ad Hoc Working Group of career officials from the major
components participating in the Honors Program. The April 26, 2007,
memorandum also announced the newly developed Component Review
Standards Guidance, which states that only merit-based criteria should
be considered by the components and by the Ad Hoc Working Group in
selecting candidates.

       The guidance instructs component reviewers to pay close
attention to a candidate’s academic qualifications. Components
selecting a candidate with less than an outstanding academic record

       46 When we interviewed former Attorney General Alberto Gonzales, he said

that he first became aware of complaints related to the Honors Program as a result of
the anonymous April 9, 2007, letter. He said that after he became aware of the letter,
he contacted Deputy Attorney General McNulty, who said that there were issues with
the program and that changes were being made to the hiring process. Gonzales said
that he encouraged McNulty to fix the process.


                                         67
must provide a justification to the Ad Hoc Working Group for the
selection based on the candidate’s skills, background, experience, or
training in a relevant field of the component’s practice. The guidance
also instructs components to exercise “due caution” when considering
web-posted information to ensure correct identification and attribution.

       Under the revised procedures, the Ad Hoc Working Group reviews
the Honors Program candidates selected by the components to ensure
that the selections comply with the guidance and that the number of
interviews does not exceed budgetary limitations. The Ad Hoc Working
Group also must provide the components with written explanations
when the Ad Hoc Working Group identifies candidates as
non-compliant with the guidance.

      SLIP candidates are not subject to review by the Ad Hoc Working
Group. Instead, OARM randomly monitors SLIP selections for
compliance with the guidance. In addition, OARM must review any
funnel offer, which is an Honors Program offer made to a SLIP intern at
the conclusion of the SLIP internship, to ensure that the candidate
meets the merit standards described in the guidance.

      G.    Evidence as to Whether 2006 Screening Committee
            Members Considered Political and Ideological
            Affiliations

       In evaluating whether political or ideological affiliations played a
role in the deselection of 2006 Honors Program and SLIP candidates, we
investigated how the three members of the Screening Committee
conducted their reviews, and we attempted to determine why the
Committee deselected specific candidates. In the following sections, we
first discuss the limited documentary evidence that exists recording the
recommendations and decisions by Committee members. Second, we
discuss the explanation that each Committee member provided to us,
or that we discovered from other available evidence, concerning how
that member conducted his or her review of candidates. Third, we
provide our analysis and conclusions regarding whether each member
of the Committee used political or ideological affiliations in evaluating
and deselecting applicants.

            1.     Lack of a Written Record

      We had difficulty reconstructing the decisions and reasoning of
the Committee members with regard to specific candidates because
virtually no written record of the Screening Committee members’ votes
and views remains. The Committee used paper copies of the
applications on which Fridman and McDonald made handwritten
notations about the applicants, but those documents were destroyed



                                    68
prior to the initiation of our investigation. Elston’s staff assistant told
us that her office did not have room to store the hundreds of
applications and, because they contained personal information about
the applicants, she placed them in the burn box for destruction shortly
after the review process was completed in early 2007. The staff
assistant said she did not recall consulting Elston or anyone else before
destroying the applications.

       The only remaining written record of some of the reasoning used
by the Screening Committee members is contained in two e-mail
chains, one discussing a Civil Division SLIP candidate and the other
discussing eight ATF SLIP candidates. The latter e-mail chain, which
provides insight into the reasoning of two of the Committee members, is
detailed below in Section III(G)(3).

      In addition, while we found e-mails in which Elston
communicated his decisions on some of the appeals submitted by the
components, he typically did not give any reasons for his decisions to
grant or deny an appeal.

      Given the lack of a written record, our interviews of Fridman and
Elston, which we discuss next, provided the best information to
determine how and why the Screening Committee made its decisions. 47

              2.     Daniel Fridman

                     a.      Instructions to Fridman

       Daniel Fridman began his career with the Department in
December 2004 when he joined the U.S. Attorney’s Office for the
Southern District of Florida as an Assistant United States Attorney. In
April 2006, Fridman was detailed to the Deputy Attorney General’s
office in Washington, D.C. 48 Fridman was recruited for the detail by
William Mercer, who at the time was the Principal Associate Deputy
Attorney General. Mercer remembered Fridman from the Truman
Scholars program Fridman had participated in during college. Fridman
said while in the Deputy Attorney General’s office he was assigned
several areas of oversight responsibility, such as health care fraud,
immigration enforcement, and child exploitation. He reported directly
to Associate Deputy Attorney General Ron Tenpas.

       47  As explained in Section III(G)(3) below, McDonald resigned from the
Department just before our scheduled interview of her. Because she no longer works
for the Department, we could not compel an interview and she declined to be
interviewed by us.
       48 Fridman graduated from law school in May 1999. Following a judicial

clerkship, he worked in a law firm in Miami, Florida, for 4 years before joining the
Department in 2004. In 2008, Fridman left the Department to work for a private law
firm.


                                         69
       Fridman had no responsibility for or involvement in hiring prior
to September 2006 when Elston assigned him to work on the Screening
Committee along with Elston and Esther Slater McDonald. According
to Fridman, Elston told Fridman to review the applications for grades,
qualifications, credentials, and experience. Fridman also said that
Elston told him that his review was to help weed out “wackos or wack
jobs.” Elston stated that because this was the Attorney General’s
Honors Program, they wanted to hire candidates who were supportive of
or who had views consistent with the Attorney General’s views on law
enforcement. However, Elston did not explain how Fridman would
determine whether a candidate supported the Attorney General’s views.

       Fridman told us that after his conversation with Elston, he was
concerned and uncertain about what he was supposed to do. He did
not understand what Elston meant by “wackos or wack jobs,” or how he
was supposed to identify a candidate who fell within Elston’s definition
of those terms. Fridman said he had “serious questions” about whether
such a review was even appropriate. Because of his concerns, Fridman
met with Tenpas and told him that he was unsure whether he
understood Elston’s request and whether his discomfort with it was an
overreaction. Fridman asked Tenpas to speak with Elston to get
clarification on the Screening Committee assignment.

      Tenpas confirmed that Fridman met with him about the
assignment. Tenpas said Fridman reported that Elston had assigned
him to review applications of Honors Program candidates and that
Fridman was uncertain and a bit concerned about the nature of the
assignment. Tenpas understood that Fridman was concerned that
Elston may have asked him to review candidates based on their political
or ideological views. Tenpas told Fridman he was right to question the
assignment because, in Tenpas’s experience as an AUSA and as a
U.S. Attorney, he had never hired anyone based on political affiliation
and he was not aware of others doing so.

      According to Fridman, he also asked Tenpas whether, if Tenpas
were in Fridman’s place, he would review candidates based on political
or ideological views, and Tenpas said no. According to Tenpas, he
advised Fridman that he should not do anything he was uncomfortable
doing because “you never get your integrity back.” Tenpas said he also
advised Fridman to get clarification from Elston about exactly what he
was being asked to do.

       Tenpas said that after their conversation, he stopped by Elston’s
office and told him that Fridman was uncertain and concerned about
the Honors Program assignment. Elston expressed frustration that
Fridman had not come directly to Elston with his concerns. Elston




                                   70
assured Tenpas that he would speak with Fridman and clarify the
assignment. Tenpas said he did not remember Elston indicating
whether he had in fact asked Fridman to consider candidates’ political
or ideological views in conducting the review.

       After his conversation with Tenpas, Fridman met with Elston a
second time. Fridman said Elston told him that, when he asked
Fridman to weed out “wackos and wack jobs, he meant he wanted us to
weed out extremists on either side of the ideological spectrum.”
Fridman said that he asked for more clarification and that Elston gave
him some examples. Fridman told us he could not remember the
examples, but said that they were similar to reasoning that if a
candidate was a member of the National Rifle Association, that
candidate would have difficulty prosecuting gun cases, and on the other
hand people who supported the legalization of drugs might have
difficulty prosecuting narcotics violations. Fridman said he still did not
completely understand the type of review Elston wanted him to
conduct, but he told Elston he was comfortable reviewing applications
for grades, credentials, and writing ability.

                     b.     Fridman’s Review Process

      Fridman said that he understood that the review needed to be
completed as soon as possible, although he did not understand that the
Screening Committee had a firm deadline. 48 Fridman also said that no
one explained to him the import of the December 1 deadline for making
employment offers. Nor did anyone explain how Screening Committees
in previous years had worked or how quickly they had conducted their
reviews. Fridman also said he had no understanding of the hiring
process for components and was unaware in the fall of 2006 of any
complaints by the components that the review process was taking too
long.

       To conduct the review, Fridman said he and McDonald received
identical sets of Honors Program applications. At first, Fridman and
McDonald attempted to meet to go over the applications together, but
their respective schedules made that difficult. Fridman said that as a
result, the practice that evolved was that McDonald reviewed the
applications first and that she would circle items on the applications,
make notes or write remarks on them, and separate them into three
categories: no, yes, and questionable. In addition, he said that

       48 Our review of e-mails found that Fridman received an e-mail from Elston’s
assistant at the beginning of the review process which set out the deadlines that
OARM had imposed.




                                         71
McDonald also conducted Internet searches to obtain further
information about the candidates. Among other things, McDonald ran
searches on candidates’ names using the Google search engine and
checked their MySpace webpages. In some cases, she read law review
or other published articles by the candidates.

       After McDonald completed her review, she passed her marked-up
applications to Fridman. Fridman told us that he first reviewed an
application for the candidate’s law school and grades. If a candidate
attended an Ivy League or other top-tier law school, Fridman generally
voted that the candidate should receive an interview unless the
applicant had substandard grades, such as a number of Cs on his or
her transcript. 49 For students who did not attend one of the top-ranked
law schools, Fridman generally only voted yes for those students who
ranked in the top third of their classes. 50 He said that if the student
was in the top 20 percent of his or her class, he would vote to interview
the applicant, regardless of law school. If the student’s class rank fell
between the top 20 percent and top third of the class, Fridman would
give closer scrutiny to the application. If the school was not a top-tier
school and did not assign class rank, Fridman would look at the grades
listed on the student’s transcript. If the student appeared to have a B
or better grade average, Fridman would recommend the applicant be
interviewed. Fridman also considered as positive factors an applicant’s
judicial clerkship, master’s degree, moot court, or prior internship with
DOJ. For candidates whose grades were borderline, Fridman closely
scrutinized their writing style.

       After Fridman completed his review, he forwarded the marked-up
applications to Elston. Fridman separated the applications into three
piles: yes – those whom both Fridman and McDonald agreed should
receive an interview; no – those whom they both agreed should not
receive an interview; and questionable – those about whom Fridman
and McDonald disagreed or whose grades were marginal and required
closer review.

       Fridman said he did not know what Elston did with the three
piles or how he screened them. Fridman believed it was apparent to
Elston which handwritten comments were his and which were

       49 Fridman explained that he considered the top law schools to be the 20

schools ranked highest in U.S. News and World Report’s ranking of law schools in
2006.
       50  Fridman said he recalled a few exceptions in which a candidate who was
not in the top third of the class but who had a particularly compelling life story
detailed in the essay portion of the application was considered for an interview.




                                         72
McDonald’s because Fridman’s handwriting was much sloppier than
McDonald’s, and sometimes they used different colored pens.

      Fridman said that he and McDonald had discussed how they
would review the applications and that he understood that McDonald
applied the same criteria as to grades and class rank as he did.
However, Fridman learned that McDonald was obtaining additional
information about candidates on the Internet when he saw notations by
McDonald providing information that was not contained in the
candidate’s application. When Fridman asked McDonald how she
obtained the additional information, she told him she conducted
searches on Google and MySpace, and read law review articles written
by the applicants. For example, Fridman recalled that one candidate
had written a law review article about the detention of individuals at
Guantánamo, and McDonald noted on the application that she
perceived the applicant’s viewpoint to be contrary to the position of the
administration. On another application, McDonald noted that she
found information on the Internet indicating that a candidate was an
“anarchist.”

       Fridman said McDonald also circled or otherwise identified items
on candidates’ applications about which she apparently had concern,
such as membership in certain organizations like the American
Constitution Society, having a clerkship with a judge who was perceived
as a liberal, having worked for a liberal Member of Congress, or having
worked for a liberal law school professor. Fridman said the general
thrust of McDonald’s written objections were to people who had an
“activist view” of the law or DOJ’s role in helping laws to evolve. He
said that it appeared from McDonald’s notations on the applications
that her concerns about candidates’ affiliations led McDonald to put
their applications in the questionable pile, regardless of whether they
had good grades or had attended a top law school.

       Fridman said that he considered only the candidate’s grades,
writing style, personal history as reflected in the essay answers, and
work experience. Fridman said he did not know how to weed out the
type of “extremists” that Elston had mentioned, so he made no attempt
to do so. Fridman said he viewed involvement with organizations as a
positive factor, regardless of the political viewpoint of the organizations.
Fridman thought judicial clerkships were also a positive factor,
regardless of whether the judge was viewed as conservative or liberal.
Similarly, Fridman said interning for a Member of Congress was a
positive factor, regardless of whether the Member was a Republican or
Democrat.




                                     73
       Fridman said he did not discuss with McDonald her written
comments objecting to candidates’ affiliations. However, he said that at
one point early in the review process he took a stack of applications to
Elston and told him that he was concerned that candidates who had
good credentials might not be granted an interview based on
McDonald’s assessments. For example, Fridman recalled that one
candidate was at the top of his class at Harvard Law School and was
fluent in Arabic. McDonald’s written notations indicated that she had
concerns about the candidate because he was a member of the Council
on American Islamic Relations and that she had placed the application
in the questionable pile. Fridman said he wrote on the application that
this candidate was at the top of his class at Harvard and was exactly
the type of person DOJ needed.

       Fridman also pointed out one or two other examples to Elston
and told him that he did not agree with McDonald. Fridman said that
while Elston did not state whether he would allow the candidates to be
interviewed, Elston indicated he understood Fridman’s concerns and
expressed general agreement that candidates with excellent law school
academic records should be interviewed. However, Fridman said he did
not know how Elston voted on individual candidates or which
candidates were cleared for interviews following Elston’s review because
Elston made the final decision on each candidate and communicated
that decision directly to OARM.

        Fridman said that in May 2007 he spoke with Elston in
connection with the Department’s response to a letter from Senators
Edward Kennedy and Richard Durbin questioning whether political
affiliations were used as a basis to deselect candidates in the Honors
Program and SLIP hiring process. Fridman said that Elston mentioned
that, during the Screening Committee’s review, Elston had generally
agreed with Fridman’s recommendations on candidates over
McDonald’s recommendations. Fridman said that Elston told him that
McDonald “knows in her own mind” what she did in reviewing
applications, but Elston generally voted with Fridman in most cases.

      During our interview of Fridman, we showed him several
applications of candidates from top law schools with outstanding
academic records who were deselected. Although Fridman said he
could not specifically recall individual candidates, he explained whether
he would have voted yes or no for a candidate based on the candidate’s
academic record and other credentials.

      We asked Fridman to review a sample of approximately 50
applications of deselected candidates who had outstanding academic
records. Fridman said that he would have voted yes on each of the


                                   74
candidates. Fridman repeatedly expressed surprise that candidates for
whom he voted yes, based on their grades, law school, and class rank,
were in fact deselected. Fridman said that based on our informing him
that these candidates had been deselected by the Screening Committee,
Elston must have sided with McDonald in deselecting these candidates.
At the end of the interview, Fridman stated:

      I’m still kind of reeling from the résumés that you . . .
      showed me . . . people from Harvard, Yale, Stanford who
      were deselected. There were a lot of them. And I am
      shocked and very disappointed about that. . . . I didn’t
      know that this was going on. I thought that this was being
      conducted in good faith. I was conducting my reviews in
      good faith and making my recommendations based on
      merits and what I thought were the people [who] were going
      to be the most qualified candidates for the Department.
      And I’m sickened by this. And I’m not happy that I’m
      associated with this.

            3.    Esther Slater McDonald

      McDonald declined to be interviewed during our investigation.
When we first contacted her in September 2007 for an interview, she
was a Counsel to the Associate Attorney General. She initially agreed to
a tentative date for her interview, but she later asked us to postpone
the interview while she retained counsel. We agreed. After McDonald
retained an attorney, and after allowing time for the attorney to
familiarize himself with the matter, a new date for the interview was set,
October 25, 2007. However, at 5:15 p.m. on October 24, McDonald’s
attorney e-mailed our investigators to advise them that his client was
canceling the interview. The attorney added that McDonald was no
longer employed by the Department.

       We learned that McDonald had resigned from the Department,
effective October 24. On the evening of October 23, she had told her
supervisor, Acting Associate Attorney General Katsas, that the next day
would be her last day at the Department. Katsas said that her
resignation came as a surprise to him.

      After her sudden departure from the Department, we renewed our
request to McDonald’s attorney to interview her. Through her attorney,
she again declined. Accordingly, we have had to rely on the testimony
of others, particularly Fridman and Elston, as well as the limited
written record, to describe and assess McDonald’s actions in reviewing
applications.




                                   75
                      a.     Assignment to the Screening Committee

      McDonald graduated from law school in May 2003. Following a
judicial clerkship, she joined a Washington, D.C., law firm as an
associate. On June 13, 2006, a partner at the law firm e-mailed
Monica Goodling to recommend McDonald for a position at the
Department. Goodling interviewed McDonald later that week.

      McDonald was hired as a political appointee as Counsel to Acting
Associate Attorney General Mercer and began work on September 5,
2006. Her duties as Counsel included assisting with oversight of the
grant issuing components of the Department, the Antitrust Division,
and the Executive Office for U.S. Trustees. She was also assigned by
Mercer to work on the Honors Program/SLIP Screening Committee after
she had been at the Department only a few weeks.

       No one we interviewed (including Elston, Fridman, and Mercer)
said they gave McDonald any instructions on how to conduct her review
of Honors Program and SLIP applications. In a letter to OPR and OIG
investigators in which he reiterated McDonald’s unwillingness to be
interviewed, McDonald’s attorney stated that she was given no
instructions on how to conduct the review, “except for limited high level
statements.” The primary guidance she was given, her attorney wrote,
was “to consider whether they would faithfully defend and uphold the
Constitution and zealously execute the laws of the United States and
the policies of the administration as they may apply to matters within
the jurisdiction of the Department of Justice.” McDonald’s attorney did
not name the source of this guidance, and he declined to allow
McDonald to be questioned about this issue. Her attorney also refused
our request to provide the name of the person or persons providing this
guidance. Therefore, we were unable to determine what, if any,
guidance or specific instructions McDonald received and from whom. 51

                      b.     McDonald’s Review Process

    As noted above, both Fridman and Elston reported that
McDonald conducted Internet searches on the candidates using Google
       51   In his letter to us, McDonald’s attorney also alleged that “at no time did
anyone inform her that her considerations or evaluations were inappropriate.”
However, we discovered an e-mail McDonald sent from her Department computer on
October 25, 2006, that, while unrelated to the Honors Program and SLIP review,
indicates that McDonald was aware of Department hiring policies for career attorney
positions. In the e-mail, McDonald told a friend who had sent her his résumé that
“since you want career positions, there’s not much I can do apart from recommending
you because there are legal constraints on career hiring to ensure that it’s not
political.”




                                         76
and MySpace. Our search of McDonald’s Internet activities on her
Department computer during October and November 2006 confirmed
that she conducted searches on many of the candidates’ names. We
were able to determine that, among other things, McDonald searched
for organizations to which candidates belonged, read blogs by or about
candidates, and searched Westlaw, school websites, and school
newspapers for articles by or about candidates. 52

      Elston and Fridman both remembered McDonald circling items
on candidates’ applications and writing remarks about those items,
including employment or affiliations with organizations, judges, law
school professors, and legislators who could be considered liberal.
While the Screening Committee normally did not discuss candidates
through e-mail, Fridman and Elston recalled an e-mail exchange we
found, dated November 29, in which the Committee discussed a request
by ATF to add additional SLIP candidates. Both Fridman and Elston
stated that the comments McDonald made in the November 29 e-mail
were consistent with the types of comments McDonald had written on
other applications as she reviewed the Honors Program and SLIP
candidates.

       In the November 29 e-mail, McDonald wrote that three of the
eight candidates were “Unacceptable” based on her objections to the
candidates’ ideological affiliations. She objected to one candidate on
the basis of the organizations he belonged to and to statements in his
essay that she considered “leftist.” She wrote in the e-mail:

       Poverty & Race Research Council actively works to extend
       racial discrimination through increased affirmative action
       and, while there, [the candidate] helped draft document
       arguing that federal law requires recipients of federal
       funding to seek actively to discriminate in favor of
       minorities (racial, language, and health) rather than merely
       to treat all applicants equally; Greenaction is an extreme
       organization founded by Greenpeace members and
       promoting civil disobedience and engaging in violence in
       protests, and the organization adheres to the Principles of
       Environmental Justice, which are positively ridiculous

       52  Through our review of her Internet searches, we were unable to reconstruct
exactly what information McDonald found about a particular candidate. Although we
could determine what websites McDonald visited after searching for a specific name,
we were not always able to determine what page or portion of the websites she read.
In addition, information that was present on the Internet at the time McDonald was
conducting searches could have been removed or altered before we attempted to
replicate her searches.




                                         77
      (e.g., recognizing ‘our spiritual interdependence to the
      sacredness of our Mother Earth’ and ‘oppos[ing] military
      occupation, repression and exploitation of lands, peoples
      and cultures, and other life forms’); [the candidate] also
      is/was a member of Greenpeace; [the candidate’s] essay is
      filled with leftist commentary and buzz words like
      ‘environmental justice’ and ‘social justice.’

      In the e-mail, McDonald noted that she deemed another
candidate unacceptable because the candidate was “active in ACS.”
Fridman said that he believed McDonald was referring to the American
Constitution Society, an organization that was intended to be a
“progressive” counterpart to the more conservative Federalist Society.
However, we determined that this candidate’s application did not
mention his membership in the American Constitution Society or ACS.
Fridman said he believed that McDonald must have obtained this
information from the Internet.

      In the November 29 e-mail, in voting no for another candidate
McDonald also noted, among other things, that the “essay also states
that she wants to work for DOJ to ‘have more of an impact on the
judicial system.’ DOJ’s purpose is not to impact the judicial system but
to enforce the law . . . .”

       In the same e-mail, McDonald found another candidate
questionable because of the candidate’s grammar, writing style, and
grades, but noted: “In her favor, she refers to wanting to work for DOJ
to fulfill her goal of ‘enforcing the law.’ Leftists usually refer to
achieving ‘social justice’ or ‘making policy’ or anything else that involves
legislating rather than enforcing.”

       When we interviewed former Acting Associate Attorney General
Mercer about McDonald’s role on the Screening Committee, he said that
while he did not have extensive discussions with McDonald about that
work, she mentioned at staff meetings that she was spending time on
the assignment. He said he recalled her mentioning on one occasion
that she had learned information suggesting that the applicant had “a
clear disdain” for the Department’s approach to cases and she was
discussing this issue with the Screening Committee. Mercer could not
recall the specifics but believed “the gist of it was this is a person who
believes that we should not have the ability to, you know, control our
borders, and get rid of people that are in the country without legal
status of being here.”

    Mercer said he was not sure of the time frame, but at some point
McDonald indicated to him that candidates had been deselected


                                    78
because of concerns about academic records and sloppiness of
applications and, at times, “a concern that they wouldn’t be able to
follow DOJ policy based upon what they had written.”

      Fridman told us that during the summer of 2007, in discussing
our ongoing investigation, McDonald told Fridman that he had nothing
to be worried about and that she was the one the OIG was going to be
concerned about.

              4.     Michael Elston

      Elston joined the Department in 1999 as a career Assistant
U.S. Attorney, first with the Northern District of Illinois and later with
the Eastern District of Virginia. 53 On November 7, 2005, he became the
Chief of Staff and Counselor to Deputy Attorney General Paul McNulty.
In April 2006, he converted from a career employee to a political
appointment. He resigned from the Department in June 2007 and now
works at a law firm.

     In this section, we provide Elston’s description of the Screening
Committee’s processes and his explanation for the decisions that he
made when evaluating candidates.

                     a.     Instructions to the Committee

       Elston told us that he initially became involved in the 2006
Screening Committee when Monica Goodling called him and asked him
to lead it. He told Goodling he had no previous experience with the
Honors Program or SLIP, but Goodling responded that no one who
conducted the screening in previous years remained at the Department.

      Elston said he did not recall what Goodling said about the
purpose of the review and she did not articulate the criteria he should
use in screening the applicants. Although Elston was aware that
Goodling claimed in her congressional testimony to have told Elston he
should identify candidates who appeared to share the Attorney
General’s philosophy, he told us he did not recall her telling him that.

      Elston said Goodling instructed him to select two additional
people to work on the Committee. Elston said he selected Fridman
because Fridman had previously impressed Elston and because
Fridman did not have as full a plate as some other members of the
ODAG staff. Elston also asked Acting Associate Attorney General

      53 Elston graduated from law school in 1994. He clerked for a federal judge

and worked for several years at a law firm before joining the Department in 1999.




                                        79
Mercer to select a member of his staff to serve on the Committee, and
Mercer chose McDonald without any input from Elston. Elston said
that when he informed Goodling that McDonald was to be on the
Committee, Goodling “seemed pleased that Esther had been picked and
said something to the effect ‘well, she’s had experience in this sort of
thing.’”

       Elston said that OARM Director DeFalaise gave him an outline of
the timeline for reviewing candidates, but did not give him any criteria
to follow. Elston told us that he was “not aware of there being any
criteria for the Honors Program in general, let alone the Department
review.”

      DeFalaise told us that while he and Elston had generally
discussed that the purpose of the screening was to ensure that the
candidates merited inclusion in the Honors Program, OARM was
supervised by the Deputy Attorney General’s office, and therefore OARM
did not direct Elston or his office on how to evaluate candidates.

       Elston said that when he asked Fridman to serve on the
Committee, he described Fridman’s duties as to “just make sure there
aren’t any wackos in the pool, or something like that,” without
explaining what he meant by “wackos.” Elston said that he did not give
Fridman any further explanation of the criteria for evaluating
candidates because Fridman was an AUSA and would know the criteria
for a Department lawyer.

      Elston said he later learned from Associate Deputy Attorney
General Tenpas that Fridman was concerned about Elston’s instruction
to screen out “wackos.” Elston told Tenpas that he meant someone who
was not qualified. According to Elston, Tenpas later told him that
Tenpas had talked to Fridman again, and Fridman’s concerns had been
resolved.

      We asked Elston whether he instructed Fridman to consider
whether a candidate’s views appeared to be consistent with the
Attorney General’s policies or to take into account organizations to
which a candidate belonged in evaluating whether a candidate might
have difficulty enforcing a Department policy. While Elston said he did
not specifically recall it, he acknowledged that there “may have been
such a discussion.”

      Elston said he also had no discussions with McDonald
concerning the criteria for evaluating candidates, nor did he ask Mercer
or anyone else to pass along such information to McDonald because he
did not think the assignment was “that complicated.” Elston said he



                                   80
was not aware of anyone else giving McDonald guidance about what
criteria she should apply when reviewing the applications.

                   b.    Elston’s Knowledge of Criteria Used by
                         Fridman and McDonald

       Elston said he believed Fridman evaluated candidates on the
criteria that “anyone would agree is appropriate.” He was aware of no
evidence that Fridman considered political or ideological affiliations in
evaluating candidates.

      Elston confirmed that Fridman raised with him early in the
review process Fridman’s concerns that McDonald was deselecting
candidates based on “membership in liberal organizations, or those
kind of things,” revealed in the candidate’s application or from Internet
searches she conducted. Elston said he reviewed the applications
Fridman noted and saw that McDonald had either circled or written
comments about liberal affiliations on the applications and then voted
to deselect those candidates.

      According to Elston, he instructed Fridman to separate out the
applications about which Fridman and McDonald disagreed so that
Elston could make the final decision on those candidates. Elston said
that he reviewed applications in the “split decision” pile, but that he did
not review applications on which Fridman and McDonald agreed.
Elston said he could identify the author of the comments on the
applications he reviewed because of differences in Fridman’s and
McDonald’s handwriting.

      Elston said he typically did not make marks on the applications
he reviewed. Rather, he separated them into final “yes” and “no” piles
based on his decisions, and he gave the piles to his administrative
assistant so she could inform OARM of the Screening Committee’s
decisions.

        Elston said it was apparent to him that, for some percentage of
the applications, McDonald rejected candidates based on the liberal
affiliations she circled or commented on, and that Fridman did not “vote
no for those reasons.” Elston said that because he reviewed the
applications on a rolling basis, he had “no way of knowing” what
percentage of applications in the split pile had been rejected by
McDonald based on the candidate’s liberal affiliations.

       According to Elston, McDonald also wrote comments on the
applications throughout the process concerning the liberal affiliations of
candidates she rejected. Elston said McDonald circled organizations
and, if they were not well-known, made a note on the application.


                                    81
Elston said he could not recall the names of any of the organizations to
which McDonald objected. Elston also recalled McDonald circling a
judge’s name and commenting that the judge was liberal. In addition,
McDonald objected to some candidates’ essays, although Elston could
not remember the basis of the objections. He said he did not recall
whether McDonald commented about articles written by applicants, but
said it would not surprise him if she had done that.

      Elston said he thought he recalled McDonald indicating it was a
negative factor if a candidate had worked for a Democrat.

      Elston said McDonald’s November 29, 2006, e-mail regarding ATF
SLIP candidates was longer and more detailed than the comments she
wrote on the applications in the split pile, but the tone and style were
similar.

      Elston said he was also aware that McDonald conducted Internet
searches because he saw printouts of search results attached to some
applications. He said he did not direct Fridman or McDonald to
conduct the searches, but he did not discourage McDonald from
conducting such searches after he discovered she was doing it.

      Elston said he could only recall the details of a couple of
McDonald’s Internet searches. He said they looked like results you
would get from a Google search on someone’s name. Elston recalled
one picture that a candidate had posted on the Internet that showed
“poor judgment,” but said he could not recall any details.

       Elston recalled another article from the Internet that he believed
McDonald had attached to the candidate’s application. The article
reported that the candidate stated he would have liked to participate in
what Elston called “riots” to protest the policies of the World Bank and
the World Trade Organization. Elston said that when the Civil Rights
Division appealed the deselection of this SLIP candidate, he provided
Rena Comisac, the Principal Deputy Assistant Attorney General for the
Civil Rights Division, a copy of the article. Comisac later responded
that the Civil Rights Division had enough people to interview and would
not pursue the appeal.

      Elston said the information in the article was something he
thought the Civil Rights Division would want to consider and that it
would be an appropriate basis upon which to deselect a candidate for
an interview. Elston said he did not consider at that time whether the
reporter had accurately quoted the candidate in the Internet article, but
“today I certainly would.”




                                   82
      Elston said he knew the Committee was not meeting its
deadlines, due in part to McDonald “spending way too much time on
each individual application package.” Elston said that he relayed to
Fridman “the need to complete the project quickly” and assumed that
Fridman relayed that to McDonald, but said he never spoke to
McDonald himself about the delays.

        Elston said he was aware that if McDonald used liberal
affiliations as proxies for party affiliations to deselect applicants, that
would be inappropriate. He said he thought at the time of the review
process that at least “the appearance of what [McDonald] was doing
was problematic.” However, Elston said he did not raise the issue with
McDonald because he “didn’t have evidence that those were her actual
bases; she could have just been commenting on things on the résumé,”
and he “didn’t have time” to address the issue with her. In addition,
Elston said he did not want to accuse McDonald of doing something
inappropriate because he speculated that Goodling may have told
McDonald to do what she was doing. Elston said that he believed he
and Fridman could “blunt the impact” of McDonald’s no votes, although
Elston acknowledged that, in retrospect, this approach was not
“sufficient.” Elston said he wished he had been “more proactive and
more protective of the Department’s reputation.”

                   c.     Elston’s Criteria

       When we asked Elston to describe the criteria he applied in
reviewing candidates in the split decision group that he reviewed, or in
reconsidering candidates when components appealed deselections, he
said “there was no specific criteria on any aspect of these applications
that I was aware of, or that I employed.” He said that in general he
looked for good grades and rankings in the top quarter of their law
school class. He did not consider the quality of the law school, and he
“made allowances” on grades for those components such as the BOP
that were less popular and did not attract the same quality of
candidates that other components did.

      Elston said he looked at the application as a whole, so that no
one criterion would disqualify a candidate. He said that clerkships in
general were considered a plus, and federal appellate clerkships,
followed by federal district court clerkships, were considered the most
valuable. Elston said he did more than just a quality check on the
applicants and disqualified candidates for “any host of things,”
including their essays.

       Elston denied approving or deselecting candidates based on
political or ideological affiliations indicated on their applications or


                                     83
identified through the Internet searches. He said he attempted to do
exactly the opposite. However, later in our interview Elston said that he
knew the Committee had put a lot of effort into reviewing the
applications and he did not want to veto all of McDonald’s decisions.
He said he often upheld her no vote, but for reasons other than the
ones relied on by McDonald. Elston said that, in hindsight, he is
concerned that when McDonald voted no on candidates based on their
political or liberal affiliations, those candidates received a second review
from him and therefore received much higher scrutiny than the
candidates that McDonald approved. He conceded “that the process
was not as level a playing field as it should have been.”

       Elston said he was very surprised to learn during our interview of
him that close to half of all SLIP applicants initially were deselected. He
said he did not know why that happened. Elston also said he did not
have any sense of deselection trends because the review was done on a
rolling basis.

        Elston acknowledged in our interview that when he became aware
in the spring of 2007 of the allegations that Goodling had used political
affiliations in hiring career immigration judges, “I had in the back of my
mind the concern that, that some of those same things were at work in
the Honors Program in hindsight.” He said he became concerned that
“there was political stuff going on,” and that the Honors Program and
SLIP may have been “Monica-ized.”

      Elston noted that the Screening Committee’s review became a
huge problem for the Department and in hindsight he wished he had
done things differently, including conducting more of a strict quality
check of the applications rather than a fuller review and consulting
with the Justice Management Division’s General Counsel to get an
opinion on whether considering certain factors was consistent with the
regulations. Elston stated that he knew there was a problem with the
Screening Committee’s review, but “it was bigger than I recognized.” He
also said he was “embarrassed to have been a part of something that
has brought so much negative publicity to the Department.”

                   d.    Elston’s Explanations on Specific
                         Deselected Candidates

      In addition to asking Elston about the general criteria he used,
we showed Elston applications of approximately 50 highly qualified
candidates who were deselected and asked him to explain the decisions.
These were candidates Fridman said he believed he approved, which
indicated that the two negative votes were cast by McDonald and
Elston. As an illustration of his answers, we provide Elston’s


                                    84
explanation for how he believed he evaluated several of those
candidates.

      For example, we asked Elston about a deselected Honors Program
candidate who was first in his class at Georgetown Law School, had
clerked for a judge on the U.S. District Court for the Southern District
of New York, was clerking for a judge on the U.S. Court of Appeals for
the Second Circuit, and had been an articles editor on a law journal.
He had also worked for a Democratic U.S. Senator and a human rights
organization. Elston said he did not recall why this candidate was
deselected. He noted that the candidate had written a note about using
international law as a tool in constitutional interpretation. Elston
explained that if McDonald had read the article and confirmed that the
candidate was advocating the use of international law in constitutional
interpretation, that would “be of concern.”

       We asked Elston about another deselected Honors Program
candidate who was enrolled in a joint degree program for law and urban
planning at Harvard, served as an articles editor on a law journal,
graduated in the top 5 percent of his undergraduate class at Harvard,
and had worked on a congressional campaign for a Democrat. 54 Elston
said he remembered the applicant because he had “chuckled” at the
following portion of his essay:

       In high school I thought that I wanted to captain a Green
       Peace skiff in the North Atlantic. I figured that was what
       serious environmentalists did, and I wanted to be a serious
       environmentalist. I decided later that potential martyrdom
       on the high seas was not for me, and rather than operate at
       the margins, I would prefer a job in which I could have a
       less antagonistic and more direct impact.

      When asked how he voted on this candidate, Elston said, “A lot of
times when I chuckled, I said no.” Elston said he was certain
McDonald would have circled items on this application.

       I would imagine this is one she felt kind of strongly about.
       And that would have . . . played into my thinking, as well,
       [be]cause I didn’t . . . feel comfortable just sort of trashing
       all the work that was, was being done by Esther and Dan.
       Would I . . . let it though today? Sure. . . .


       54 The applicant did not indicate the congressional candidate’s party affiliation
on his application, but an Internet search revealed that the candidate was a
Democrat.




                                          85
       I couldn’t vote . . . with Dan all the time. I mean, if Esther
       felt very strongly and it came though clearly on a résumé, I
       gave that weight. . . .
       You can review the application package and come away
       with a, with a conclusion that this is not a person who
       comes to the Department with [an] . . . evenhanded
       approach to environmental issues. And . . . I think [in] that
       case I voted with Esther on it.

      We asked Elston about a deselected Honors Program candidate
selected by ENRD who was in the top 10 percent of his class at Lewis
and Clark University, was an articles editor for an environmental
journal, and had worked for Earthjustice and the Northwest
Environmental Defense Center. 55 The candidate indicated in his essay
a strong interest in working in environmental law, including that he
wanted “to serve as part of the team charged with enforcing the world’s
most comprehensive environmental laws, and with defending the
crucial work of our environmental and resource management agencies.”

      Elston commented that while he did not know anything about the
organizations that the candidate worked for

       the impression I’m left with after a quick look at this is that
       this is someone who had come to the Environment
       Division . . . with an agenda, not with an open mind as to
       the best way to enforce the environment, environmental
       laws. . . . I had a negative reaction to that. So, I may well
       have voted with Esther on that one.

      We asked Elston about another deselected Honors Program
candidate who had graduated from Yale Law School, had been a
member of the Yale Law Journal, graduated summa cum laude with a
Bachelor of Arts degree from Yale College, was clerking for a judge on
the U.S. Court of Appeals for the Second Circuit, had studied Arabic,
and had worked with a human rights organization.

      Elston said he looked for people with Arabic language skills and
that he also knew the judge this candidate was clerking for, so he
believed he would have been enthusiastic about this candidate. Elston


       55  The applicant described Earthjustice as “the nation’s leading nonprofit
environmental law firm” and the Northwest Environmental Defense Center as a
“nonprofit, public interest environmental organization as well as Lewis and Clark Law
School’s largest student group.” Its website describes Earthjustice as the successor to
the Sierra Club Legal Defense Fund.




                                          86
could not explain why the candidate was deselected and said he was
“starting to get concerned that some ‘yes’ pile [applications] got in the
‘no’ pile.”

       We asked Elston about a deselected SLIP candidate who was a
student at Harvard Law School, graduated in the top 5 percent of his
undergraduate class from the University of California, Berkeley, was an
editor on Harvard’s human rights journal, had interned with a city
attorney’s office and a state court judge, and had worked for 5 years in
marketing before entering law school.

       In his essay, the candidate referred to his perception that working
for the government would be “work for the people” where “principles
forged by experience, prudence and moral obligation” would guide the
work. In his last line of the essay, the candidate stated, “It is precisely
this ability to have my principles guide my work that inspires me to be
a government lawyer.” Elston thought he would have reacted negatively
to that last sentence because “I believe that a civil servant enforces the
law impartially [and] often times is called upon to set aside his or her
own beliefs.” However, Elston stated that he had no recollection of
whether he reviewed the application and voted no.

      We showed Elston many similar applications of highly qualified
applicants with either liberal or Democratic Party affiliations who had
been deselected. Elston said he could not recall these applications and
could not explain why they had been deselected.

                   e.    Elston’s Decisions on Appeals

       We also questioned Elston about his decisions on the
components’ appeals of deselected candidates. As noted above, Elston
alone decided the appeals submitted by the components. Elston denied
component appeals of 16 of the 32 Honors Program candidates and 13
of the 18 SLIP candidates who had been initially deselected. Because
many of the candidates whose appeals were denied had strong
academic credentials, we showed Elston some of those candidates’
applications and asked him to explain his decisions. Elston at first said
that “for the most part I granted appeals.” However, Elston also stated
that he had a “bias against overturning the work that the Screening
Committee had done” and accordingly his “bias was to not grant
appeals because to do so would undermine the departmental review
process.” Elston said he

      was not going to automatically reverse decisions that were
      already made. I felt like there was some burden on them




                                    87
       [the components] to give me a compelling reason to
       interview them.

       We discussed with Elston appeals of specific candidates. For
example, we asked Elston why he denied the appeals of two candidates
by the Civil Division. One candidate was a student at Harvard Law
School, had an undergraduate degree from Princeton University, had
worked for Planned Parenthood and a Democratic Senator, and had
received high praise for her work during a SLIP internship the previous
summer. Another candidate had graduated sixth in his law school
class from the University of Alabama, had been a member of the law
review, had interned for the Public Defender Service, currently was
clerking for a federal judge, and had written a paper on the detention of
aliens under the Patriot Act.

       Elston’s only explanation for deselecting these candidates was
that he was “pretty offended” by the Civil Division’s appeal, which
stated that the Division screeners had taken the responsibility of
selecting candidates seriously and “given the care we exercise in
making these selections, we would urge some deference to the difficult
choices.” Elston said he found the appeal offensive because the
Division employees were “basically saying we know better” and “you
should defer to us.” However, Elston could not explain why he accepted
other candidates appealed by the Civil Division but denied these two
candidates. He noted that his appeal decision e-mail to the Civil
Division was sent late at night and added, “I didn’t spend a lot of time
thinking about them.”

      Elston recalled that Civil Division AAG Keisler subsequently made
a personal appeal in a telephone call on behalf of the candidate who
worked for Planned Parenthood, which caused Elston to reverse his
decision and reinstate that candidate. Elston said he did not recall
Keisler telling him that people were concerned this candidate had been
deselected because she worked for Planned Parenthood.

       We asked Elston why he denied the request of U.S. Attorney Carol
Lam to interview a candidate who graduated in the top third of her
class at Stanford Law School, was summa cum laude with an
undergraduate degree from George Washington University, was clerking
for a judge on the U.S. Court of Appeals for the Ninth Circuit, and had
previously worked for the Center for the Study of Sexual Minorities in
the Military. 56


       56  According to its website, the Center for the Study of Sexual Minorities in
the Military, which has since changed its name to the Michael D. Palm Center,
                                                                                (Cont’d.)


                                          88
      Elston said he could not recall the reasons for his decision, but
thought he may have struck the candidate based on a reference in her
essay that being a federal prosecutor would afford her the opportunity
to exercise prosecutorial discretion in deciding what charges were
appropriate and whether to offer a plea bargain. Elston said this
caused him to conclude that “this is the kind of AUSA that would in my
view not necessarily stand up for the law with respect to sentencing and
department policy.”

       We asked Elston about his denial of the Antitrust Division’s
appeal on behalf of a candidate who was in the top 10 percent of his
class at the University of Minnesota Law School, was a law review
editor, graduated from the Wharton School of Business at the
University of Pennsylvania, was clerking for a federal appellate judge,
and listed membership in both the Federalist Society and the American
Constitution Society with a comment that he was “open-minded to all
points of view.” The candidate also noted in his essay that he was
capable of defending positions such as the constitutionality of the
“President’s NSA‘s wiretapping program” even though he “remained
personally conflicted” about the program.

       Elston said he was “surprised” that he did not grant the appeal
and could not recall the reason for his decision. He noted, however,
that the dual memberships in the Federalist Society and the American
Constitution Society was not the reason. Elston said that he may not
have granted the appeal because this candidate was listed fourth
among six candidates that the component was appealing and he may
have assumed that the component listed the candidates in order of
priority. However, Elston could not recall why he granted the appeals
of other candidates requested by this component, including one who
was fifth on the appeal list, had lower grades, attended a lower-tier law
school, and had no political or ideological affiliations on his application.

      We asked Elston about an appeal he denied of a candidate who
was a student at Georgetown Law School with a 3.08 grade point
average, who graduated in the top third of his undergraduate class at
Georgetown University, and who had worked for Senator John Kerry’s
presidential campaign. The candidate selected the Criminal Division as
one of the components he was interested in, stated in his essay that he
had “always wanted to be a prosecutor,” explained that his interest had
been heightened by his friendship with the victim of a sexual assault

promotes the interdisciplinary analysis of lesbian, gay, bisexual, transgender, and
other marginalized sexual identities in the armed forces. Its work has been cited by
those supporting the inclusion of homosexuals in the military.




                                         89
but that his interest in prosecuting was not “limited to rapists,” and
included a paragraph that spoke highly of the role of the U.S. Attorney.

       Elston denied that the candidate’s work on the Kerry campaign
had any negative effect on his decision. Rather, Elston said that one of
the reasons he did not grant the appeal was because other than
selecting the Criminal Division as one of the components he was
interested in, the applicant “didn’t express an interest in the Criminal
Division.” Elston stated that his essay was not sufficient to express an
interest in the Criminal Division because the Division “doesn’t
prosecute sex offenders” and “does very different things than U.S.
Attorneys’ Offices.” 57 Elston also said that his grades were not
impressive and that he used too many exclamation points (we found
three on the three-page application), which was a “pet peeve” of
Elston’s.

       We asked Elston why he denied the appeal of a SLIP candidate
who was a student at Yale Law School, a member of the Yale Law
Journal, a Rhodes Scholar, a Truman Scholar, graduated summa cum
laude from Yale College, interned with the U.S. Attorney’s Office for the
Southern District of New York, had researched national security and
terrorism issues for Yale Law Professor Bruce Ackerman, and had
worked for the Minnesota Advocates for Human Rights, the
Coordinating Council for Children in Crisis, and the Legal Services
Organization’s Trafficking Clinic. 58 AAG Keisler had sent Elston an
e-mail indicating that this candidate was the top priority among all
those SLIP candidates that the Civil Division was appealing.

      Elston said that this candidate “looks like a perfectly outstanding
candidate, although she doesn’t say much in terms of essay that would
give us a view as to why she’s interested in public service.” Elston said
he could not recall why he did not grant this appeal and that he would
have granted it at the time of his interview with us. Elston noted that
the date of the e-mail exchange with Keisler discussing this candidate
was November 24 and “by this time I was really tired of these things.”

        57 We note that Elston’s statement that the Criminal Division does not

prosecute sex offenders is incorrect. The Child Exploitation and Obscenity Section of
the Criminal Division prosecutes violations of federal law related to producing,
distributing, receiving, or possessing child pornography, transporting women or
children interstate for the purpose of engaging in criminal sexual activity, and
traveling interstate or internationally to sexually abuse children. In addition, this
Section has jurisdiction to prosecute cases of child sexual abuse on federal and Indian
lands.
       58 Professor Ackerman published a book in the spring of 2006 entitled, Before

the Next Attack: Preserving Civil Liberties in an Age of Terrorism.




                                          90
       We also asked Elston about a SLIP candidate who was a third-
year student at Yale Law School, had secured a clerkship on the
U.S. Court of Appeals for the Ninth Circuit for the fall of 2007, had a
master’s degree in history from Harvard University, graduated cum
laude from Yale College, had successfully served as a SLIP with the
Department, and had a security clearance. The candidate’s application
also stated that she had worked for a Democratic Congressman and
had worked at the Yale Lowenstein Human Rights Clinic on human
rights issues “arising from the war on terror.” Elston was unable to say
why the candidate was deselected. Elston said he remembered being
moved in a positive way by the personal essay the candidate had
written about some difficulties in her childhood. However, Elston said
he found this candidate’s essay “a little bit troublesome” because she
said she wanted to work at the Department where she would “be able to
consider both the needs of my client and also what is best for my
country.” Elston said that “line attorneys in the Department of Justice
don’t get to indulge themselves [by] deciding for themselves what’s best
for the country.” Nevertheless, Elston said he did not think that
statement in the essay would constitute a reason to disqualify
somebody with an outstanding record and an otherwise great essay.

      We asked Elston why he denied the appeal of a SLIP candidate
who was a student at Stanford Law School, an editor on the Stanford
Journal of International Law, President of the Stanford International
Human Rights Association, and had graduated summa cum laude from
Northwestern University. Elston said there was nothing familiar to him
about the application so he could not explain why he did not approve it.
However, on reading the applicant’s essay when we showed it to him,
Elston said that he had a negative reaction to her statement that
working for the Department would stimulate her conscience as well as
her brain and allow her to work on cases that she cared about. Elston
stated:

      [T]hose kinds of things [in essays] strike me as being, as
      being an indication that this person views it all right to put
      their own judgment about what’s right and wrong ahead of
      what the law, or, or policy requires. . . . But it’s just not
      the job of a line career attorney to, you know, decide in a
      metaphorical sense what’s right and wrong.

      Elston said he took those kinds of considerations into account
when reviewing the substance of applicants’ essays. He said that an
attorney’s “job is to follow the policies of the Department even if you
disagree with them. And so, that’s the kind of person that I’m looking
for when I’m looking for a line Assistant.”



                                    91
      H.    Conclusions on 2006 Honors Program and SLIP Hiring
            Process

      The evidence in our investigation – including the documentary
evidence, the testimony of witnesses, and the analysis of the
applications of candidates who were selected for interviews and who
were deselected by the 2006 Screening Committee – supports the
conclusion that political or ideological affiliations were used to deselect
candidates from the Honors Program and SLIP.

       As discussed below, we concluded that while Fridman did not use
political or ideological affiliations in his evaluation of candidates, the
evidence indicates that both McDonald and Elston did. As a result,
many qualified candidates were deselected by the Screening Committee
because of their perceived political or ideological affiliations.

      First, with regard to Fridman, we found him to be credible in his
explanation of how he conducted his review of candidate applications
and in describing what factors he considered. Fridman also took
reasonable steps to notify his supervisors that improper criteria may
have been applied in the Honors Program and SLIP review process.
Fridman was uncomfortable with the instructions he was given by
Elston, and he discussed them with Tenpas, his first line supervisor.
Tenpas advised him to apply only criteria he believed were appropriate
and to seek further clarification from Elston, which Fridman did. When
Fridman observed McDonald applying what he believed were
inappropriate criteria, he brought his concern to Elston’s attention,
even pointing out specific examples. Elston assured Fridman that he
agreed with him and that he need not worry about McDonald because
Elston would cast the deciding vote. We believe that Fridman acted
appropriately under the circumstances.

        The evidence demonstrates that, by contrast, McDonald used
inappropriate criteria in her evaluations. The November 29, 2006,
e-mail from McDonald to Elston and Fridman opining on ATF SLIP
candidates is direct evidence that McDonald inappropriately evaluated
candidates based on the candidates’ political or ideological affiliations.
McDonald wrote that she voted against candidates because their essays
used “leftist commentary and buzz words” such as “environmental
justice,” “social justice,” “making policy,” or “anything else that involves
legislating rather than enforcing.” She also expressed disapproval of
candidates’ affiliations with liberal organizations such as the American
Constitution Society, the Poverty and Race Research Action Council,
Greenpeace, and Greenaction. Her remarks in the e-mail about “leftist
commentary” suggested that this was not an isolated incident or the
first time she had applied these criteria. Moreover, Fridman and Elston


                                    92
both told us that McDonald’s comments in the November 29 e-mail
were consistent with other comments she made in her review of Honors
Program and SLIP applications.

       Fridman also told us that McDonald circled items and expressed
concern about applications that indicated a candidate had worked for a
judge, law professor, or legislator she considered liberal, was a member
of or had worked for a liberal organization, or expressed views in a law
review article that were not entirely consistent with positions taken by
the current administration. Elston also acknowledged that McDonald
appeared to have considered political or ideological affiliations in her
review of applications.

      We do not know what, if any, instructions McDonald was given
about how to judge the candidates. 59 No one acknowledged instructing
her or knew who did. We concluded that the Department’s handling of
such an important assignment as screening for Honors Program and
SLIP hiring to be deficient. First, the Department assigned a new and
inexperienced attorney to perform this important function. McDonald
had been at the Department less than a month when she received this
assignment and was only 3 years out of law school. Second, we found
no evidence that Mercer, Elston, or anyone else gave her any
instructions about how to perform the screening or what criteria should
and should not be used. Third, when Elston, the head of the
Committee, was informed by Fridman that McDonald appeared to be
making recommendations based on political or ideological affiliations,
Elston did not discuss this with her or instruct her that this was
inappropriate.

       Based on the results of our investigation, we concluded that
McDonald committed misconduct and violated Department policies and
civil service law by considering political or ideological affiliations in
assessing Honors Program and SLIP candidates.

       However, we believe the most significant misconduct was
committed by Elston, the head of the Screening Committee. Elston
failed to take appropriate action when he learned that McDonald was
routinely deselecting candidates on the basis of what she perceived to
be the candidates’ liberal affiliations. We also concluded that Elston

       59  However, we found evidence that McDonald knew that using political and
ideological affiliation was inappropriate, but did it anyway. As noted above, in an
e-mail dated October 25, 2006, unrelated to the Honors Program and SLIP, McDonald
advised a friend applying for a career position with the Department “there’s not much
I can do apart from recommending you because there are legal constraints on career
hiring to ensure that it’s not political.”




                                         93
deselected some candidates – and allowed the deselection of others –
based on impermissible considerations.

        As the leader of the Screening Committee, Elston should have
ensured that the Committee members used appropriate criteria in
making decisions, in accord with federal law and Department policy.
Yet, he did not discuss with Fridman and McDonald the proper criteria
for evaluating candidates. Elston provided only cursory and vague
instructions to Fridman (such as eliminate “wackos and wack jobs”).
Elston’s additional instruction to Fridman that they wanted to hire
candidates who were supportive of or who had views consistent with the
Attorney General’s views on law enforcement was also deficient because
such an ambiguous criterion easily could be used to identify and
deselect those who held ideological views that differed from the
administration’s. Elston failed to provide any instruction to McDonald,
who was a junior attorney new to the Department. Moreover, after he
became aware early in the screening process that McDonald was
rejecting candidates based upon what she perceived to be their liberal
affiliations, he did not discuss that impropriety with her. 60

       Elston told us that he decided not to talk to McDonald about the
criteria she was using because even if she was rejecting candidates
based on their liberal affiliations, he and Fridman could overrule her.
Elston admitted, however, that he frequently gave deference to
McDonald’s decisions because he could not always vote against her
“and trash the work of the Screening Committee.” Elston also stated
that he wished he had been “more proactive and more protective of the
Department’s reputation.”

        As explained below, we concluded that Elston violated federal law
and Department policy by deselecting candidates based on their liberal
affiliations. First, the data analysis indicates that highly qualified
candidates with liberal or Democratic Party affiliations were deselected
at a much higher rate than highly qualified candidates with
conservative or Republican Party affiliations. Second, Elston admitted
that he may have deselected candidates in a few instances due to their
affiliations with certain liberal causes. Elston also was unable in

       60  Although Elston stated that he did not know whether McDonald’s no votes
were actually based upon the negative comments she was making about the
candidates’ liberal affiliations, we found that statement disingenuous. Fridman told
Elston that McDonald was doing this, and the notations on the applications, which
Elston recognized as McDonald’s handwriting, showed that McDonald was circling
and commenting on these groups. Moreover, many of these candidates had stellar
credentials, and there was no other apparent reason for McDonald recommending
their deselection.




                                         94
specific cases to give a credible reason as to why highly qualified
candidates with liberal or Democratic Party affiliations were deselected.

      While Elston generally denied that he considered political or
ideological affiliations in evaluating candidates, he admitted when
questioned about certain candidates that he considered aspects of
those candidates’ ideological affiliations in his evaluation. For example,
Elston admitted that in two instances he would have voted with
McDonald to deselect the candidates based on their affiliations with
pro-environment causes because he did not want the candidates
coming to the Department “with an agenda” or without “an even-
handed approach” to environmental issues.

       In addition, Elston consistently was unable to provide credible
explanations as to why he denied the appeals of the highly qualified
candidates who had liberal or Democratic Party affiliations. His
proffered reasons were also inconsistent with other statements he made
or actions he took. For example, as discussed above, Elston said he
rejected two highly qualified candidates with liberal affiliations because
he was offended by the appeals submitted by the Division which he
thought showed a lack of deference to the Screening Committee.
However, Elston could give no reason why he approved other
candidates included in the Division’s appeal. Similarly, Elston believed
he may have rejected one highly qualified candidate because the
candidate was listed fourth among the list of six candidates that the
component was appealing and he assumed the component was listing
the candidates in order of priority. However, Elston granted the appeal
for another candidate who was listed fifth out of the six candidates the
component was appealing, had lower grades at a lower-tier school than
the candidate who was listed fourth, but who had no affiliations on his
application that could be categorized as liberal or conservative.

       Similarly, we did not find credible Elston’s explanation that he
may have denied the appeal of a highly qualified candidate who had
worked for the Center for the Study of Sexual Minorities in the Military
because he concluded the candidate would not “stand up for the law
with respect to sentencing and Department policy” due to the statement
in her essay that she would be able to exercise prosecutorial discretion
as a federal prosecutor. We also did not credit Elston’s other
explanation for denying this candidate – that she was not academically
qualified because she was in the top third rather than the top quarter of
her class at Stanford Law – since it was inconsistent with his actions in
approving other candidates from lower-tier law schools with lower
grades.




                                   95
      During his interview, Elston also frequently pointed to lines in
candidates’ essays that may have been a basis for deselecting
candidates because he said these statements could be indications that
the candidates would improperly follow their own consciences rather
than the Department’s policies. These included statements such as the
candidate wanting to work for the Department because the job would
allow the candidate “to consider what is best for my country.”

       In addition to Elston’s failure to provide credible explanations for
his actions during his interview, we concluded that Elston was not
candid with others in the Department who questioned him during the
hiring process about why candidates were being deselected. According
to at least 12 witnesses, Elston stated that the candidates were
deselected on the basis of grades, grammatical mistakes in writing, or
inappropriate information on the Internet. Yet, as our data analysis
demonstrated and as Elston reluctantly acknowledged, these reasons
could not adequately explain why many candidates were deselected.

      Moreover, Elston tried to minimize his role in selecting candidates
when he was questioned by others about the Committee’s decisions.
Elston frequently explained that other Committee members had been
responsible for the decisions and described his role as a conduit.
However, the evidence demonstrated that he was casting the deciding
vote on a significant number of candidates that Fridman had approved
and McDonald had rejected.

       In sum, we found that Elston was aware that McDonald was
rejecting candidates based on her perception of the candidates’ political
or ideological affiliations and that he failed to intervene, discuss it with
her, or stop her from doing so. We also concluded that Elston
committed misconduct, and violated federal law and Department policy,
when he deselected candidates and denied appeals based on his
perception of the political or ideological affiliations of the candidates.

      We also concluded that OARM Director DeFalaise did not
adequately or timely address the concerns that were brought to his
attention concerning the Screening Committee’s deselections. 61 As
Director of OARM, DeFalaise played a key oversight role in the
administration of the Honors Program and SLIP. During the 2006
process, he became aware that an unusually large number of
candidates were deselected, that the deselections included highly

       61 OPR Counsel H. Marshall Jarrett recused himself from the evaluation of

DeFalaise’s conduct.




                                        96
qualified candidates, and that some component officials were concerned
that political considerations were being taken into account. Although
Elston told DeFalaise that the deselections were based on legitimate
reasons such as academic qualifications, we believe that DeFalaise had
sufficient evidence to, at a minimum, raise concerns about the
Screening Committee’s criteria or the deselection of particular
candidates directly with Elston or discuss those concerns with other
senior leaders at the Department.

       Finally, we concluded that Acting Associate Attorney General
Mercer did not adequately address the concerns that were brought to
his attention by several senior Department officials that the Screening
Committee’s deselections appeared to have been politicized. In his role
as Associate Attorney General, Mercer had oversight authority over the
Tax Division and Civil Division, as well as other components
participating in the Honors Program and SLIP hiring process. In
addition, one of his own staff members, McDonald, was a member of
the Screening Committee. When Mercer questioned McDonald about
the criteria the Screening Committee had applied, McDonald told him
that the deselections were based on concerns about academic records,
sloppiness of applications, and at times, “a concern that [the
applicants] wouldn’t be able to follow DOJ policy based upon what they
had written.”

       Mercer also relied on Elston’s assurances that the deselections
were based on legitimate concerns about academics or the sloppiness of
applications without any further inquiry, even though he had been
informed by other Department officials that they believed that
academically qualified candidates had been deselected. Similarly,
Mercer relied on Elston’s assurances that Elston would improve the
process even though Elston was involved in selections that were alleged
to have been politicized. Further, Mercer had learned from Associate
Deputy Attorney General David Margolis that the meeting Elston held
on improving the process had not gone well and that a lot of people had
left the meeting “disturbed” and “not satisfied.” We believe that, based
on Mercer’s oversight authority over the Tax and Civil Divisions and
other participating components, he should have pursued the matter
further with Elston.




                                  97
IV.   Conclusions and Recommendations

       As our report describes, in 2002 the Honors Program and SLIP
hiring process was fundamentally changed by an Attorney General’s
Working Group to enable the Department’s senior leadership to have
more input into the selection of candidates. Prior to that time, career
employees within each component administered the interview and
selection process for the Honors Program and SLIP. In 2002,
participation in the process by political officials in the components
increased, as directed by the Attorney General’s Working Group, but
dropped off significantly in subsequent years.

      Under the system implemented by the Attorney General’s
Working Group beginning in 2002, a Screening Committee composed
primarily of politically appointed employees from the Department’s
leadership offices had to approve all Honors Program and SLIP
candidates for interviews by the components.

      In 2002, many deselections were required because of budget
constraints. The data showed that candidates with Democratic Party
and liberal affiliations apparent on their applications were deselected at
a significantly higher rate than candidates with Republican Party,
conservative, or neutral affiliations. This pattern continued to exist
when we compared a subset of academically highly qualified candidates
from the three groups. However, we found no other evidence that the
members of the Screening Committee intentionally considered political
or ideological affiliations in making their deselections, and the
Committee members all denied doing so. While we were unable to
prove that any specific members intentionally made deselections based
on these prohibited factors, the data indicated that the Committee
considered political or ideological affiliations when deselecting
candidates.

      During the next 3 years, from 2003 to 2005, the Screening
Committee made few deselections, and we found no evidence that
deselections were made based on political or ideological affiliations.

        However, we found that in 2006 the Screening Committee
inappropriately used political and ideological considerations to deselect
many candidates. We determined that a disproportionate number of
the deselected Honors Program and SLIP candidates had liberal
affiliations as compared to the candidates with conservative affiliations.
This pattern was also apparent when we examined the data for
membership in the liberal American Constitution Society compared to


                                    98
the conservative Federalist Society for SLIP candidates and when we
compared applicants with Democratic Party affiliations versus
Republican Party affiliations for both Honors Program and SLIP
candidates. The disproportionate pattern was also apparent when we
examined candidates who were highly qualified academically.

        The documentary evidence and witness interviews also support
the conclusion that two members of the 2006 Screening Committee,
Esther Slater McDonald and Michael Elston, took political or ideological
affiliations into account in deselecting candidates in violation of
Department policy and federal law. For example, the evidence showed
that McDonald wrote disparaging statements about candidates’ liberal
and Democratic Party affiliations on the applications she reviewed and
that she voted to deselect candidates on that basis.

       We also found that Elston, the head of the 2006 Committee,
failed to take appropriate action when he learned that McDonald was
routinely deselecting candidates on the basis of what she perceived to
be the candidates’ liberal affiliations. The evidence also showed that
Elston himself deselected some candidates – and allowed the
deselection of others – based on impermissible considerations. Despite
his initial denial in our interview that he did not consider such
inappropriate factors, he later admitted in the interview that he may
have deselected candidates in a few instances due to their affiliation
with certain causes. In addition, Elston was unable to give a credible
reason as to why specific highly qualified candidates with liberal or
Democratic credentials were deselected.

      We concluded that, as a result of the actions of McDonald and
Elston, many qualified candidates were deselected by the Screening
Committee because of their perceived political or ideological affiliations.
We believe that McDonald’s and Elston’s conduct constituted
misconduct and also violated the Department’s policies and civil service
law that prohibit discrimination in hiring based on political or
ideological affiliations.

      However, because both McDonald and Elston have resigned from
the Department, they are no longer subject to discipline by the
Department for their actions. Nevertheless, we recommend that the
Department consider the findings in this report should either McDonald
or Elston apply in the future for another position with the Department.

      With regard to the processes used by components for selecting
candidates, we received significant allegations that inappropriate
considerations were used in selecting candidates in the Civil Rights
Division. The OIG and OPR are jointly investigating various allegations


                                    99
involving the Civil Rights Division, and we will provide our findings in a
separate report when that investigation is concluded.

       As to the remaining components, we generally found that the
Honors Program and SLIP hiring processes were largely controlled by
career employees and were merit based. We did not find evidence to
indicate that components employed inappropriate criteria such as
political or ideological affiliations to select candidates for the Honors
Program or SLIP. While some concerns were raised concerning the
Criminal Division’s selection of candidates in 2005, we did not find
sufficient evidence to conclude that political or ideological affiliations
were used to either approve or eliminate candidates for that Division.

       In addition, we believe that various employees in the Department
deserve credit for raising concerns about the apparent use of political or
ideological consideration in the Honors Program and SLIP hiring
processes. For example, Daniel Fridman deserves praise for reporting
his concerns about the process in 2006 to both his supervisor and
Elston and for avoiding the use of improper considerations in his review
of candidates for the Honors Program and SLIP. A few DOJ political
employees also objected to the apparent use of political or ideological
considerations in the hiring process, such as Assistant Attorneys
General Peter Keisler and Eileen O’Connor, and they should be credited
for raising their concerns. Certain career employees, particularly in the
Tax Division and the Civil Division, also pressed concerns about the
hiring process. By contrast, we believe that others in the Department,
such as Acting Associate Attorney General William Mercer and OARM
Director Louis DeFalaise, did not sufficiently address the complaints
about the deselections.

       As discussed in this report, as a result of the widespread
complaints from career employees that arose following the 2006
selection process, in April 2007 the Department changed the process
for selecting Honors Program and SLIP candidates. Under the new
process, the Screening Committee was replaced by an Ad Hoc Working
Group composed of a senior career employee from each of the major
Department components that participate in the Honors Program and
SLIP. The components and the Ad Hoc Working Group were also
directed to follow the Component Review Standards Guidance that
notes that only merit-based criteria should be considered in selecting
candidates.

      Under the current process, the Ad Hoc Working Group reviews
the Honors Program candidates selected by the components only to
ensure that the components’ selections comply with the Component
Review Standards Guidance and that the number of interviews does not


                                    100
exceed budgetary limitations. The Working Group must provide a
component with a written explanation of any candidates it identifies as
non-compliant with the guidance. In 2007 only 15 candidates were
deselected, 14 because of poor academic standing and 1 because of
poorly written essays. SLIP candidates are not subject to review by the
Ad Hoc Working Group. Instead, OARM randomly monitors SLIP
selections for compliance with the guidance.

       In addition to the changes made to the Honors Program and SLIP
hiring process, beginning in the summer of 2007 the Department began
briefing all new political appointees on merit system principles and
prohibited personnel practices as part of the official orientation process.
Further, Attorney General Mukasey issued a memorandum on
March 10, 2008, requiring all political appointees to acknowledge that
they have read the Department regulations that hiring must be merit
based and that political affiliations cannot be considered.

       We believe that these changes to the Honors Program and SLIP
hiring process are important changes that can help address many of
the problems that we found in our investigation. However, we believe
the Department should consider additional changes to help ensure that
political or ideological affiliations are not inappropriately used to
evaluate candidates for the Honors Program and SLIP in the future.

       First, the April 26, 2007, memorandum from the Director of
OARM describing changes to the Honors Program and SLIP should be
strengthened. The memorandum contains the Component Review
Standards Guidance, which provides a description of the merit-based
criteria that should be used to evaluate Honors Program and SLIP
candidates. However, the memorandum should also explicitly state
that political affiliations may not be used as criteria in evaluating
candidates and that ideological affiliations cannot be used as a proxy to
discriminate on the basis of political affiliation. As we found in this
investigation, membership in organizations that are perceived as liberal
or conservative can easily be used as a screening device to discriminate
on the basis of political affiliation. Moreover, discriminating on the
basis of ideological affiliation violates the merit-based principles
governing federal employment for career employees, and it undermines
confidence in the Department’s mission.

      In addition, we believe it is important to consistently remind all
employees involved in the selection of Honors Program and SLIP
candidates that the selections must be merit based without
consideration of political affiliations. Thus, we recommend that the
Department implement a process to require all employees participating
in the selection of Honors Program and SLIP candidates to formally


                                   101
acknowledge that they have read the Component Review Standards
Guidance and will abide by the standards when selecting candidates.

       We further recommend that the Department include a provision
in its Department of Justice Human Resource Order that emphasizes
that the process for hiring career attorneys must be merit based and
clarifies both that political affiliations cannot be considered and that
ideological considerations cannot be used a proxy to discriminate on
the basis of political affiliations.

        We also noted that several components that issued their own
guidance on hiring failed to include politics on the list of factors, such
as race, gender, and age, that cannot be considered in hiring decisions.
We recommend that the Department ensure that all components that
issue their own guidance on hiring of career employees consistently
state that political affiliations cannot be considered and that ideological
affiliations cannot be used as a proxy for determining political
affiliations.

        In addition, we believe that the briefing currently provided to
political appointees about the merit system principles can be
strengthened. The written briefing for political appointees stresses that
candidates cannot be discriminated against on the basis of political
affiliation without mentioning ideological affiliations. We believe the
briefing and training material should be clarified to note that
candidates should be evaluated based on their merits and that
ideological affiliations may not be used as a screening device for
discriminating on the basis of political affiliations.

       Finally, we believe that the Department leaders, as well as the Ad
Hoc Working Group, must be vigilant to ensure that political or
ideological affiliations are not used to select candidates for the Honors
Program or the SLIP. The Honors Program is a critical recruiting tool
for the Department to bring in talented new attorneys, many of whom
will become long-term public servants. It is important for the
Department to have a fair and open competition for these positions and
to ensure that the selection for the program is based on non-partisan
considerations. While we believe the Department has taken important
steps to address issues that arose in the selection of candidates for the
Honors Program and SLIP candidates in the past, we believe the
Department must ensure that the serious problems we found in Honors
Program and SLIP hiring do not recur in the future.




                                   102
                              APPENDIX


                        2002 HP Organizations

Liberal Organizations

American Civil Liberties Union
American Constitution Society
Amnesty International
Bisexual, Gay, Lesbian Advocates
Bisexual Law Student Association
Capital Area Immigrants’ Rights Coalition
Center for Constitutional Rights
Chesapeake Bay Foundation
Coast Alliance
Committee of Refugees from El Salvador
Conservation International
Conservation Law Foundation
Earthjustice
Electronic Privacy Information Center
Environmental Defense Fund
Environmental Resources Trust
Florence Immigrant and Refugee Rights Project, Inc.
Georgetown University Institute for Public Representation
Georgia Project Center for Democratic Renewal
Grassroots Environmental Effectiveness Network
Human Rights Campaign
Human Rights Watch
Innocence Project
International Human Rights Law Group
Law Students Against the Death Penalty
Lesbian, Gay, Bisexual, and Transgender Alliance
Mexican American Legal Defense
Midwest Environmental Advocates
NAACP Legal Defense
National Wildlife Federation
Natural Resources Defense Council
Nature Conservancy
New York University Brennan Center for Justice
Northwest Environmental Defense Center
NOW Legal Defense
Partnership for Civil Justice
Physicians for Human Rights
Planned Parenthood


                                 103
Pridelaw
Public Citizen
San Diego Baykeeper
Santa Monica Mountains Conservancy
Save Our Wetlands, Inc.
Sierra Club
Texas Immigrant and Refugee Coalition

Conservative Organizations

Alliance Defense Fund
American Center for Law and Justice
American Family Association Center for Law and Policy
Blackstone Fellowship
Center for Faith and Freedom
Christian Legal Society
Columbia Coalition for Life
Defenders of Property Rights
Federalist Society
Heritage Foundation
Leadership Institute
National Center for Policy Analysis
Notre Dame/St. Mary’s College Right to Life Club
Thomas More Center for Law and Justice




                                104
                        2002 SLIP Organizations

Liberal Organizations

American Civil Liberties Union
Alliance for Justice
American Constitution Society
Amnesty International
Ayuda, Inc.
Battered Immigrant Women Project
Campaign to End the Death Penalty
Capitol Area Immigrants Rights Coalition
Carr Center for Human Rights
Center for Reproductive Law and Policy
Central American Refugee Clinic
Citizen Works
Conservation Law Foundation
Earthjustice
East Bay Workers’ Right Clinic at Boalt Law School
Electronic Frontier Foundation
Farmworker Legal Services
Florence Immigrant and Refugee Rights Project
Florida Immigrant Advocacy Union
Friends of Farmworkers, Inc.
Georgia Equality Project
Heal the Bay
Human Rights Watch
Innocence Project
International Refugee Center of Oregon
Lamba Law Association
Lawyers Committee for Civil Rights
Massachusetts Law Reform Institute
Mexican American Legal Defense
Migrant Legal Action Program, Inc.
NAACP Legal Defense Fund
National Center for Law and Economic Justice
National Consumer Law Center
National Immigration Project
National Organization for Women
Natural Resources Defense Council
Oceana
Planned Parenthood
Potomac Conservancy
Prisoner’s Rights Research Project
Public Citizen
Public Justice Center


                                 105
Public Research Interest Group
Rocky Mountain Immigrant Advocacy Network
San Francisco Estuary Project
Sierra Club
Students Against Sweatshops
Texas Immigrant and Refugee Coalition
Tobacco Products Liability Project
Washington Lawyers Committee for Civil Rights
Wildlife Society
Women Strike for Peace
Workers’ Rights Clinic at UC Hastings College of Law

Conservative Organizations

Alliance Defense Fund
American Center for Law and Justice
Campus Crusade for Christ
Christian Legal Society
Conservative Political Action Conference
Defenders of Property Rights
Federalist Society
National Center for Policy Analysis
National Right to Work Committee
National Taxpayers Union and Foundation
Oregonians in Action
Texas Eagle Forum
Thomas More Legal Society
Thomas More Pre-Law Society




                                 106
                        2006 HP Organizations

Liberal Organizations

American Civil Liberties Union
American Constitution Society
Amnesty International
Asylee Family Rescue Project
Ayuda, Inc.
California SLAPP Project
Capital Area Immigrants’ Right Coalition
Carter Center
Cascade Resources Advocacy Group
Catawba Riverkeeper Foundation
Civil Rights Empowerment Project
Clean Water Action
Communities for a Better Environment Conservation Law Foundation
Death Penalty Clinic at Boalt Hall
Defenders of Wildlife
The Earl Carl Institute at the Thurgood Marshall School of Law
Earthjustice
East Bay Worker’s Rights Clinic
Environmental Law Institute
Environmental Defense
Environmental Human Rights
Environmental Law Alliance Worldwide
Equal Justice Initiative
Farmworker Justice
Florida Immigrant Advocacy Center
Gay Men’s Health Crisis (Immigration Unit)
Human Rights First
Human Rights Law Society
Human Rights Watch
Immigrant and Refugee Appellate Center
Immigrant Law Center of Minnesota
Immigrant Rights Coalition Refugee and Asylum Committee
Immigration Equality
Immigration Legal Resource Center
Innocence Project
International Union for the Conservation of Nature
Law School Civil and Human Rights Clinics and Organizations
Law School Environmental Law Clinics and Societies
Law School Immigration Clinics
Law School Legal Aid Clinics
Lawyer’s Committee for Civil Rights
Lawyers for Clean Water


                                107
Lawyers Without Borders
Legal Aid Organizations
Maryland Latino Coalition for Justice
Midwest Immigrant and Human Rights Center
Migrant Legal Action Program
Minnesota Advocates for Human Rights
Minnesota Center for Environmental Advocacy
Minnesota Justice Foundation
National Environmental Trust
National Law Center on Homelessness and Poverty
National Wildlife Federation
Natural Resources Defense Council
Nature Conservancy
Northwest Environmental Defense Center
Northwest Immigrants Rights Project
NOW Legal Defense and Education Fund
Oceana
OUTLaw
Pittsburgh Refugee and Immigrant Assistance Center
Planned Parenthood Federation of America, Inc.
Police Accountability Project
Political Asylum Project of Austin
PRAXIS: An Institute for Social Justice
Public Advocates, Inc.
Public Defender Service
Save the Dunes Conservation Fund
Sierra Club
Southern Center for Human Rights
Southern Environmental Law Center
Texas Civil Rights Project
UPenn Reproductive Rights Clinic
Upper Chatahoochee Riverkeeper
Washington Lawyers Committee for Civil Rights and Urban Affairs
Women’s Initiative for Self-Empowerment
World Organization for Human Rights
Youth Advocacy Project

Conservative Organizations

Alliance Defense Fund
Blackstone Legal Fellowship
Christian Legal Society
Edmund Burke Society
Family Research Council
Federalist Society
Heritage Foundation


                                108
Hudson Institute
Thomas More Society
Thomas More Law Center
Thomas More Scholar
Washington Legal Foundation




                              109
                        2006 SLIP Organizations

Liberal Organizations

Academy on Human Rights and Humanitarian Law
American Civil Liberties Union
Alliance for Justice
American Constitution Society
Center for American Progress
Center for Death Penalty Litigation
Conservation Law Foundation
Earthjustice
Environmental Alliance World Wide
Environmental Defense Fund
Environmental Law Society
Human Rights Campaign
Human Rights Law Society
Human Rights Watch
Immigration Project
Innocence Project
International Human Rights Legal Clinic
Legal Aid Justice Center- Immigration Clinic
Lowenstein Human Rights Clinic
NAACP Legal Defense Fund
National Council of Women’s Organizations
National Law Center on Homelessness and Poverty
Natural Resources Defense Council
Planned Parenthood
Project Renewal, Inc.
Public Justice Center
Save Our Springs Alliance
World Organization for Human Rights USA
World Wildlife Fund

Conservative Organizations

Alliance Defense Fund
American Center for Law and Justice
Christian Legal Society
Federalist Society
Heritage Foundation
Liberty Legal Institute
Thomas More Legal Society




                                 110
